<html>
<title> - ENSURING STRONG FEMA REGIONAL OFFICES: AN EXAMINATION OF RESOURCES AND RESPONSIBILITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                ENSURING STRONG FEMA REGIONAL OFFICES: 
                 AN EXAMINATION OF RESOURCES AND RESPONSIBILITIES
=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2010

                               __________

                           Serial No. 111-56

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 




      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                        U.S. GOVERNMENT PRINTING OFFICE
58-302 PDF                    WASHINGTON : 2011
------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c7b6c735c7f696f687479706c327f737132">[email&#160;protected]</a>  











                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                Laura Richardson, California, Chairwoman
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Pete Olson, Texas
Henry Cuellar, Texas                 Anh ``Joseph'' Cao, Louisiana
William L. Owens, New York           Michael T. McCaul, Texas
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (ex 
Emmanuel Cleaver, Missouri               officio)
Dina Titus, Nevada
Bennie G. Thompson, Mississippi (ex 
    officio)
                      Stephen Vina, Staff Director
                          Ryan Caldwell, Clerk
               Amanda Halpern, Minority Subcommittee Lead
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     3

                               Witnesses

Mr. David Garratt, Associate Administrator, Federal Emergency 
  Management Agency, Department of Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     7
Mr. Tony Russell, Regional Administrator, FEMA Region 6, 
  Department of Homeland Security:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................     7
Ms. Christine Gibbs Springer, National Academy of Public 
  Administration:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. Brock Long, Director, Alabama Emergency Management Agency:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15

                                Appendix

Questions From Chairwoman Laura Richardson for David Garratt and 
  Tony Russell...................................................    35
Questions From Honorable Dina Titus for David Garratt and Tony 
  Russell........................................................    38
Question From Honorable Dina Titus for Christine Gibbs Springer..    39


                     ENSURING STRONG FEMA REGIONAL 
       OFFICES: AN EXAMINATION OF RESOURCES AND RESPONSIBILITIES

                              ----------                              


                        Tuesday, March 16, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
   Subcommittee on Emergency Communications, Preparedness, 
                                              and Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Laura Richardson 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Richardson, Thompson, Cuellar, 
Cleaver, Titus, Pascrell, Norton, Rogers, Olson, and Cao.
    Also present: Representative Jackson Lee.
    Ms. Richardson [presiding]. Well, good morning. Welcome to 
the Subcommittee on Emergency Communications, Preparedness, and 
Response. This committee will come to order.
    The subcommittee's meeting today to receive testimony on 
ensuring strong FEMA regional offices, an examination of 
resources and responsibilities.
    I will now recognize myself for an opening statement.
    Let me, first of all, say to the witnesses who are here, I 
promise to be gentle. That is a joke. This is my maiden voyage 
and, actually, this will be one that I will remember for a long 
time.
    So we are very glad to have you here today, and I look 
forward to your participation.
    When I think about the panel's testimony and we talk about 
FEMA's regional offices, there really is nothing more important 
in my mind because you are the direct contact that people will 
rely upon in times of disaster. This hearing marks the first of 
the subcommittee that I have been able to chair since assuming 
these duties, and I am particularly pleased to sit here beside 
our Ranking Member, Mr. Rogers, who I am looking forward to us 
doing good work on this committee as we move forward.
    I would like to acknowledge Mr. Cuellar who is here. He was 
the former Chair. He has moved on to being the Chair of 
Borders. However, he is still very committed to this issue, 
remains committed to it. We will rely upon a lot of the work 
that he has already done thus far.
    Further, I want to acknowledge our Chairman, Chairman 
Thompson, for his leadership. He actually entrusted me with the 
opportunity to do this job, and I am committed to not only 
fulfilling the committee's objectives that we have laid out but 
also to be mindful of the goals that he has in mind and to be a 
good partner and to make sure that we achieve them.
    I also look forward to, with this panel, with FEMA, to look 
at the post-Katrina Emergency Management Reform Act of 2006. 
When you look at the many reforms that were intended by FEMA, 
the tools that are necessary to really support our citizens in 
time of disaster, having our first responders available and 
prepared to do the work is critical for all of us.
    Few reforms are more important than the ones designed to 
reinvigorate FEMA's ten regional offices. For FEMA to truly be 
effective, it must develop strong relationships with its State, 
local, and Tribal partners. For me, having come from local 
government, that is a particular focus that I think we need to 
kind in mind.
    These relationships are best built and nurtured at the 
regional level. Headquarters should largely develop the 
agency's policies, and the regions should lead the 
implementation of those same policies. Of course, that is 
easier said than done. I am very encouraged though, however, 
that Administrator Fugate has taken some of the necessary key 
first steps to empower the regions to do that very task.
    Shortly after being confirmed, Mr. Fugate delegated ten 
authorities at the regional offices. We want to use today's 
hearing to get an understanding from FEMA directly on how these 
regions have implemented those ten authorities and, more 
broadly, FEMA's future plans for further enhancing the region's 
participation.
    The subcommittee wants to ensure that, as more 
responsibilities are delegated down, the regions have the 
staffing, the expertise, and the tools necessary to fulfill its 
duties. This, in particular, is true for the homeland security 
grant and preparedness programs. It is unclear to this 
committee at this point whether the regions currently have the 
capacity to manage the homeland security grant program.
    For example, this fall, FEMA announced that the majority of 
homeland security grant projects would have to undergo an 
environmental review process. Putting aside the administrative 
burden that this requirement places on the grantees, our 
understanding is that there will be just one person in each 
region who will be responsible for reviewing hundreds of 
environmental reviews.
    This, clearly, is a bottleneck that is waiting to happen. 
It is also unclear to this committee how the regions' 
preparedness and grant officers work together to ensure that 
the Federal resources are building State and local preparedness 
capabilities. FEMA's leadership recognizes that the grants and 
preparedness efforts were largely siloed at the headquarters 
and the announced reorganization in December was intended to 
better integrate these efforts. We need to make sure, though, 
that the regions don't make those same mistakes.
    The National Academy of Public Administration, NAPA, 
explored FEMA's headquarters region's complexity in its report, 
``FEMA's integration of preparedness and development of robust 
regional offices.'' NAPA concluded that FEMA is making progress 
but, despite the progress, there were several recommendations 
that we will talk about today.
    I look forward to all of your testimonies. With that, I 
would like to recognize our Ranking Member, the gentleman from 
Alabama, Mr. Rogers, for his opening statement.
    Mr. Rogers. Thank you, Madam Chairwoman. I look forward to 
working with you in your new capacity as Chair of this 
committee and wish our colleague, Mr. Cuellar, well in his new 
endeavor.
    Now, I would like to start by thanking our witnesses for 
taking the time to be here. I know this is not convenient, but 
it is very helpful to us to be able to draw on your knowledge 
and experience to better shape policies. So thank you for 
taking the time and trouble to be here.
    I would like to especially thank Brock Long from Alabama, 
our director of EMA. He does a great job for our State and glad 
to know there is somebody on the panel that talks like me.
    We have got a Member over here--even though she is from Las 
Vegas, she talks like me, too. You will find out in a few 
minutes when she introduces one of our guests.
    [Laughter.]
    Mr. Rogers. I like it.
    This hearing is being held to examine whether current 
resources and staffing within FEMA's ten regional offices is 
sufficient to support the administrator's vision as well as the 
post-Katrina Emergency Management Reform Act mandate to 
strengthen and enhance FEMA's regions.
    The continued strengthening of FEMA's regional offices is 
essential to measuring the effectiveness of the agency 
partnerships with State and local emergency managers and, in 
turn, our Nation's level of preparedness. I look forward to 
discussing Administrator Fugate's recent memo delegating 
authorities to the regional administrators, including an update 
on the progress of the regions making--that the regions are 
making in implementing these new authorities as well as a 
discussion on the possibility of additional changes and reviews 
in the future.
    This hearing also provides an opportunity to discuss FEMA's 
2011 budget proposal for the regions and the specific ways in 
which the regions can build on their critical partnerships with 
the States.
    Finally, I would like to hear from the National Academy of 
Public Administration as to--as well as our State emergency 
management director on how FEMA can streamline and improve its 
regional operations to create a more efficient and effective 
organization.
    To that end, one of the issues I hope to discuss is the 
disaster declaration process, how we can help make this process 
more transparent and timely as it moves from region to 
headquarters and up to the President's determination.
    Again, I want to thank our witnesses for being here.
    With that, Madam Chairwoman, I yield back.
    Ms. Richardson. Thank you.
    The Chair now recognizes the Chairman of our committee of 
the whole homeland security, the gentleman from Missouri, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. Thank you, Chairwoman Richardson, for 
convening such an important hearing this morning.
    I have no doubt that you will continue the great work of 
Chairman Cuellar in your new capacity as Chair of this 
subcommittee, and I look forward to working with you.
    I want to thank our witnesses for being here today to 
discuss FEMA's efforts to strengthen its regional offices. Any 
local emergency manager will tell you that the regional offices 
are FEMA's front line for facilitating emergency management 
programs. That is why the committee made sure language was 
included in the Post-Katrina Emergency Reform Act--PKEMRA--to 
bolster the role of the regional offices.
    Hurricane Katrina demonstrated that we needed better 
coordination between headquarters and the regions, stronger 
regional preparedness, and more autonomy for the regional 
administrators to make timely decisions.
    I was very encouraged to see Administrator Fugate tackle 
these mandates by delegating many new authorities to the 
regional offices. Now, regional administrators will be 
empowered to hire senior-level staff, provide stronger 
oversight, and further expedite disaster assistance to State 
and local governments. This is an important step but much more 
work needs to be done.
    According to a recent report from the National Academy for 
Public Administration, the regions may not have the capacity to 
handle all of their new responsibilities. When the regions were 
asked by NAPA what does being a robust regional office mean, 
the No. 1 response from all those surveyed was more personnel.
    Unfortunately, NAPA also found that FEMA has a weak 5-year 
strategic human capital plan that does not meet PKEMRA 
mandates. Since becoming Chairman, I have consistently called 
on FEMA to build a larger, more qualified, and diverse work 
force. Completing a comprehensive 5-year human capital plan, 
and properly staffing the regional offices must be a priority 
for FEMA.
    NAPA also highlighted the need for better communication 
between FEMA headquarters and the regions as well as a possible 
transfer of additional authority to the regions. I strongly 
urge FEMA to further analyze NAPA's recommendation and make any 
needed adjustments to its new regional office strategy.
    We must ensure that we are not setting up the regional 
offices for failure. They must have the staffing authority, 
funding, and expertise to carry out all of their missions. 
Again, I commend Administrator Fugate for taking bold steps to 
empower the regions, but many questions still remain, including 
how the new reorganization at FEMA headquarters will impact the 
regions.
    I thank all the witnesses for joining us today. I look 
forward to hearing their testimony. Since the Ranking Member 
talked about accent, I hope you now know there are three of us 
who sound alike.
    [Laughter.]
    Mr. Thompson. I yield back.
    Ms. Richardson. Other Members of the subcommittee are 
reminded that, under the committee rules, opening statements 
may be submitted for the record.
    I welcome the panel of witnesses. Our first witness is Mr. 
David Garratt, associate administrator for mission support at 
FEMA. In this capacity, Mr. Garratt is responsible for finance, 
human capital, acquisitions, security, information technology, 
facilities, and support services at FEMA.
    Mr. Garratt has served in a number of leadership roles at 
FEMA including acting deputy administrator.
    Our second witness, Mr. Tony Russell, was appointed as the 
regional administrator for Region 6 in December 2009. In this 
role, he is responsible for all FEMA operational decisions and 
policy implementation within the States of Texas, Oklahoma, New 
Mexico, Arkansas, and Louisiana.
    Prior to this appointment, Mr. Russell served as acting 
director of the Louisiana Transitional Recovery Office.
    Our third witness, Dr. Christine Springer, is a national 
academy fellow and will be introduced by Ms. Titus of Nevada.
    The Chair recognizes the gentlewoman for a brief 
introduction.
    Ms. Titus. Thank you very much, Madam Chairwoman. I look 
forward to serving on this committee with you.
    To the Ranking Member, I appreciate that statement because 
my mother thinks I am losing my accent.
    [Laughter.]
    Ms. Titus. So I am really delighted to introduce my friend 
and colleague, Dr. Christine Springer. Dr. Springer is the 
director of the executive master's degree program in emergency 
and crisis management at the University of Nevada and Las 
Vegas.
    I am proud to have a colleague from UNLV testify before 
this committee, and I am pleased that she is able to join us 
today. She comes on behalf of the National Academy of Public 
Administration where she participated in writing the previously 
mentioned and oft-cited NAPA report, ``FEMA's integration of 
preparedness and development of robust regional offices. An 
independent assessment.''
    I look forward to hearing her perspective on this important 
subject. I am sure that her presentation will be most 
informative. I base this assumption not only on her impressive 
resume and extensive experience but on my first-hand 
opportunities to have had her as a guest lecturer in some my 
classes at UNLV.
    So thank you, and welcome to you, Dr. Springer, and the 
other witnesses.
    Ms. Richardson. I thank the gentlewoman. Certainly, you 
have not lost your accent.
    [Laughter.]
    Ms. Richardson. Our fourth witness, Mr. Brock Long, was 
appointed director of the Alabama Emergency Management Agency 
in January 2008. He serves as the Governor's cabinet-level 
State coordinating officer for all declared disaster events in 
Alabama.
    We are pleased to have all of you present and greatly 
appreciate your testimonies today.
    Without objection, the witnesses' full statements will be 
inserted into the record, and I now ask each witness to 
summarize his or her statement for 5 minutes beginning with Mr. 
Garratt.
    I should tell you that our former Chair used to run these 
meetings so well that, if you weren't here at first half an 
hour with Mr. Cuellar, the meeting would be done. So I have got 
tough shoes to fill but, Mr. Garratt, we look forward to your 
summarized testimony.

 STATEMENT OF DAVID GARRATT, ASSOCIATE ADMINISTRATOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Garratt. Thank you. Good morning, Madam Chairwoman and 
Ranking Member Rogers and other Members of the subcommittee.
    I am David Garratt. I am the associate administrator of the 
Federal Emergency Management Agency. Joining me is my 
colleague, Tony Russell. He is a regional administrator from 
FEMA Region 6 that encompasses the States of Texas, Louisiana, 
New Mexico, Arkansas, and Oklahoma.
    On behalf of FEMA and the Department of Homeland Security, 
we appreciate the opportunity to testify today about our 
regional offices, their resources, and their responsibilities.
    As you know, FEMA's mission is to support our citizens and 
first responders to ensure that, as a Nation, we work together 
to build, sustain, and improve our capability to prepare for, 
protect against, respond to, recover from, and mitigate all 
hazards.
    This is not a mission for the faint of heart or for the 
fluid of commitment. It requires great personal and 
professional dedication, constant engagement with our partners 
at every level of government and across the private sector and 
the authority, ability, and resolve to act quickly and 
decisively to respond to the events developed on the ground.
    FEMA's administrator, Mr. Craig Fugate, strongly believes 
that emergency management organizations are most responsive and 
effective when the unambiguous authority to make necessary 
operational decisions is delegated to the lowest command levels 
possible. Administrator Fugate's vision, shared without 
reservation by members of his senior staff and senior 
department leadership, is that headquarters is responsible for 
the rules and tools, and the regions in the field are the 
implementers.
    In other words, the role of headquarters is to prescribe 
policy and develop systems to support National policy, but 
personnel in the regions and fields are responsible for 
actually implementing the policy and preparing for, responding 
to, and recovering from and mitigating all hazards.
    Soon after he was sworn in, Administrator Fugate made it a 
priority to ensure that FEMA's regional and field organizations 
were appropriately equipped and fully empowered to exercise 
those operational responsibilities. Accordingly, in July of 
last year, not long after taking office, Administrator Fugate 
issued a memorandum which began what is an on-going process of 
realigning key operational responsibilities and authorities to 
and, in some cases back to, our region offices.
    This on-going regional delegation and empowerment effort 
reflects a fundamental institution shift toward a more 
decentralized approach to disaster management and recognizes 
three important principles. First, that our regional 
colleagues, as a result of their regular and routine inactions 
with their principle customers, had developed relationships and 
are far more likely to have an acute understanding of the 
unique capabilities of the State, local, and Tribal governments 
in their respective geographic areas of responsibility.
    Clearly, they are in the best position to effectively 
communicate with local stakeholders and work proactively to 
address regional issues both day-to-day and during emergency 
operations.
    Second, empowering the regions will help reduce unnecessary 
bureaucracy. Overly complex decision-making chains inevitably 
contribute to costly delays in providing needed support and may 
episodically result in operational paralysis.
    Micromanagement and mismanagement go hand in hand and are 
fatal to timely and effective emergency management. We simply 
cannot allow a micro-managerial reliance on overly centralized 
decision-making to undermine our responsiveness and hinder our 
ability to react swiftly and successfully to the needs of our 
partners and customers.
    When, under emergency conditions, the top priority is to 
save lives and assist disaster survivors, regions must be 
empowered to take necessary action.
    Finally, delegating responsibility to our regional offices 
will reinforce their authority and operational relevance as 
well as fortify them with a greater sense of direct ownership 
in FEMA's multi-faceted mission. This shift is a strong signal 
of National confidence to our regional staff as well as to the 
jurisdictions with which they regularly interact and support.
    By strengthening our regions, FEMA effectively strengthens 
its relationships with and responsiveness to our State, local, 
and Tribal customers.
    Administrator Fugate and Secretary Napolitano recognize 
that strong regions require strong leaders, and both are 
committed to pursuing, selecting, and assigning regional 
administrators to have a demonstrated ability in and knowledge 
of emergency management and homeland security. The gentleman 
sitting immediately to my left is a perfect example of this.
    We firmly and fundamentally agree that these key leadership 
positions are no place for emergency management novices and 
will continue to ensure that only experienced and qualified 
emergency managers fill these critical positions.
    In conclusion, I want to emphasize that this regional 
empowerment initiative represents not a devolution of 
responsibility and authority from headquarters to our regions 
but the evolutionary recognition that our regions must grow 
into stronger and more capable extensions of our National 
emergency management capability.
    We look forward to working with the subcommittee and all of 
our stakeholders to continue these efforts to bolster our 
regional efficacy and meet FEMA's mission.
    Thank you.
    [The joint statement of Mr. Garratt and Mr. Russell 
follows:]
       Joint Prepared Statement of David Garratt and Tony Russell
                             March 16, 2010
    Good morning Madam Chairwoman, Ranking Member Rogers, and Members 
of the subcommittee. I am David Garratt, Associate Administrator at the 
Federal Emergency Management Agency (FEMA). Joining me is my colleague 
Tony Russell, Regional Administrator of FEMA Region 6, which 
encompasses the States of Texas, Louisiana, New Mexico, Oklahoma, and 
Arkansas. On behalf of FEMA and the Department of Homeland Security, we 
appreciate the opportunity to testify today about our regional offices, 
their resources, and their responsibilities.
    As you know, FEMA's mission is to ``support our citizens and first 
responders to ensure that as a Nation we work together to build, 
sustain, and improve our capability to prepare for, protect against, 
respond to, recover from, and mitigate all hazards.'' This is not a 
mission for the faint of heart. It requires great personal and 
professional dedication, constant engagement with our partners at every 
level of government and across the private sector; and the authority, 
ability, and resolve to act quickly and decisively respond as events 
develop on the ground.
    FEMA's Administrator, Mr. Craig Fugate, strongly believes that 
emergency management organizations are most responsive and effective 
when the unambiguous authority to make necessary operational decisions 
is delegated to the lowest command levels possible. Administrator 
Fugate's vision, shared without reservation by members of his senior 
staff and senior Department leadership, is that headquarters is 
responsible for the ``rules and tools'' and the regions in the field 
are the implementers. In other words, the role of headquarters is to 
prescribe policy and develop systems to support National policy, but 
personnel in the regions and the field are responsible for actually 
implementing policy and preparing for, responding to, recovering from, 
and mitigating all hazards.
    Soon after he was sworn in, Administrator Fugate made it a priority 
to ensure that FEMA's regional and field organizations were 
appropriately equipped and fully empowered to exercise those 
operational responsibilities. Accordingly, in July of last year, not 
long after taking office, Administrator Fugate issued a memorandum 
which began what is an on-going process of realigning key operational 
responsibilities and authorities to--and in some cases back to--our 
regional offices. Among the delegated authorities are:
  <bullet> The authority to issue mission assignments in excess of $10 
        million. Previously, regions could only approve up to $10 
        million without headquarters approval in the Enterprise 
        Coordination and Approval Process (ECAP) systems.
  <bullet> The authority to contract for aircraft to support 
        requirements organic to that specific region. Previously, 
        regions were required to rely on headquarters to find a 
        contractor to fit the regional requirement. This was time-
        consuming and inefficient.
  <bullet> The restoration of regional authority to approve 
        requisitions for non-disaster goods and services, thereby 
        reducing previous delays incurred when the regions were 
        required to seek headquarters approval.
  <bullet> The authority to select and hire staff in senior regional 
        positions. Previously, such hires had to be approved by FEMA 
        headquarters.
    This on-going regional delegation and empowerment effort reflects a 
fundamental institutional shift toward a more decentralized approach to 
disaster management, and serves to develop more robust regional 
offices. Regardless of the impetus, the re-empowerment of regional and 
field offices recognizes three important principles.
    First, our regional colleagues, as a result of their regular and 
routine interactions with their principal customers, have developed 
relationships and are far more likely to have an acute understanding of 
the unique capabilities and needs of the State, local, and Tribal 
governments in their respective geographic areas of responsibility. 
Clearly, they are in the best position to effectively communicate with 
local stakeholders and work proactively to address regional issues, 
both day-to-day and during emergency operations.
    Second, empowering the regions will help reduce unnecessary 
bureaucracy. Overly complex decision-making chains inevitably 
contribute to costly delays in providing needed support, and may 
episodically result in operational paralysis. Micromanagement and 
mismanagement go hand in hand, and are fatal to timely and effective 
emergency management. We simply cannot allow a micro-managerial 
reliance on overly centralized decision-making to undermine our 
responsiveness and hinder our ability to react swiftly and successfully 
to the needs of our partners and customers. When, under emergency 
conditions, the top priority is to save lives and assist disaster 
survivors, regions must be empowered to take necessary action.
    Finally, delegating more responsibility to our regional offices 
will reinforce their authority and operational relevance, as well as 
fortify them with a greater sense of direct ownership in FEMA's 
multifaceted mission. The shift sends a strong signal of National 
confidence to our regional staff, as well as to the jurisdictions with 
which they regularly interact and support. By strengthening our 
regions, FEMA effectively strengthens its relationships with and 
responsiveness to our State, local, and Tribal customers.
    In October 2009, the National Academy of Public Administration 
(NAPA) concluded a study of FEMA requested by Congress and released its 
report, ``FEMA's Integration of Preparedness and Development of Robust 
Regional Offices: An Independent Assessment.'' This report revealed 
that FEMA has made significant progress in better integrating 
preparedness across our functional fabric, as well as in creating more 
robust regional offices. Specifically, the report found that FEMA has 
taken significant steps to create more robust regional offices, 
including developing and promulgating guidance to identify the 
respective preparedness responsibilities of headquarters and regional 
offices, and creating a regional advisory council in each region to 
represent stakeholders. The report cited clear efforts to improve the 
on-going working relationship between headquarters and the regions, and 
identified measures to review the success of evolving regional office 
authorities. Significantly, the National Academy of Public 
Administration's report stated that among these significant steps, FEMA 
``[d]elegated ten additional authorities to regional administrators, 
pursuant to a July 2009 memorandum from the Administrator''. FEMA is 
pleased that the National Academy of Public Administration has 
recognized the agency's efforts to create more robust regions and 
highlighted the importance of the administrator's July 2009 memorandum 
to that objective; we also agree with the report's assessment that 
there is more work to be done and that additional opportunities for 
improvement and empowerment remain. We are committed to address these 
and other concerns raised in the report, while continuing to build on 
our recognized successes.
    Strengthening our regions will ultimately involve more than just 
delegating responsibility and authority; it will also require 
optimizing manpower. Accordingly, the Deputy Administrator is 
personally leading a high-priority, senior-level initiative to examine 
how our positions are organized between headquarters and the regions, 
and reviewing how best to reposition resources to the regions to 
complement and to fully support the implementation of the programs in 
the regions. This effort may well drive additional functional 
management changes as we continue to decentralize for success.
    Administrator Fugate and Secretary Napolitano both recognize that 
strong regions require strong leaders, and both are committed to 
seeking and selecting regional administrators who are both qualified 
and prepared to handle these additional responsibilities. The 
administration is actively pursuing, selecting, and assigning regional 
administrators who have ``a demonstrated ability in and knowledge of 
emergency management and homeland security.'' We firmly and 
fundamentally agree that these key leadership positions are no place 
for emergency management novices, and will continue to ensure that only 
experienced and qualified emergency managers fill these critical 
positions.
    In conclusion, I want to emphasize that this regional empowerment 
initiative represents not a devolution of responsibility and authority 
from headquarters to our regions, but the evolutionary recognition that 
our regions must grow into stronger and more capable extensions of our 
National emergency management capability. We look forward to working 
with this subcommittee and all of our stakeholders to continue these 
efforts to bolster our regional efficacy and meet FEMA's mission. Thank 
you.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Mr. Russell to summarize his statement for 
5 minutes.

STATEMENT OF TONY RUSSELL, REGIONAL ADMINISTRATOR, FEMA REGION 
               6, DEPARTMENT OF HOMELAND SECURITY

    Mr. Russell. Good morning, Madam Chairwoman, Ranking Member 
Rogers, and Members of the subcommittee.
    I am Tony Russell, the regional administrator of FEMA 
Region 6. As Mr. Garratt mentioned, FEMA Region 6 includes the 
States of Texas, Louisiana, New Mexico, Oklahoma, and Arkansas. 
I welcome the opportunity to testify before you today, 
particularly from my perspective as a regional administrator 
about FEMA's initiative to evolve authorities to the regions.
    Simply put, Administrator Fugate believes that headquarters 
is responsible for the rules and the tools, and the regions in 
the field are the implementers. Headquarters will prescribe 
policy, and the regions will implement that policy.
    In July 2009, Administrator Fugate issued a memorandum 
which began what is an on-going process of realigning key 
operational responsibilities and authorities to and, in some 
cases, back to our regional offices. This process addresses a 
key goal of the Post-Katrina Emergency Management Reform Act, 
or PKEMRA, which called FEMA to develop more robust regional 
offices.
    In October 2009, the National Academy of Public 
Administration, NAPA concluded a Congressionally-requested 
study of FEMA and released its report, ``FEMA's integration of 
preparedness in development of robust regional offices. An 
independent assessment.''
    This report revealed that FEMA has made significant 
progress in better integrating preparedness across our 
functional fabric as well as in creating more robust regional 
offices, but that specific goals and outcomes to expand are 
these efforts were still needed.
    The report found that FEMA has taken significant steps to 
create more robust regional offices, including developing and 
promulgating guidance to identify the respective preparedness 
responsibility of headquarters and regional offices and 
creating a regional advisory committee in each region to 
represent stakeholders.
    FEMA is pleased that the NAPA has recognized the agency's 
efforts, but FEMA is also aware that additional opportunities 
for improvement and empowerment remain to which we are 
committed.
    Additionally, Deputy Administrator Serino is personally 
leading a high-priority senior-level initiative to examine how 
our positions and organization between headquarters and the 
regions and reviewing how best to align resources to the 
regions to complement and support the region's new 
responsibilities.
    This effort may well drive additional functional management 
changes as we continue to decentralize in ways that will 
continue to improve the agency's performance. In support of 
this effort and consistent with PKEMRA, the administration is 
actively pursuing and selecting regional administrators who 
have a demonstrated ability in and knowledge of emerging 
management and homeland security.
    Administrator Fugate and Secretary Napolitano firmly and 
fundamentally agree that these key leadership positions are no 
place for an emergency management novice and will continue to 
ensure that only experience and qualified emergency managers 
fill these critical positions.
    In conclusion, as a regional administrator, it is my view 
that this process of evolving authorities to the regions will 
be of great benefit in helping FEMA to achieve its mission to 
support our citizens and first responders to ensure that, as a 
Nation, we work together to build, sustain, and improve our 
capability to prepare for, protect against, respond to, recover 
from, and mitigate all hazards.
    I look forward to responding to your questions. Thank you 
very much.
    Ms. Richardson. Thank you for your testimony.
    I now recognize Dr. Springer to summarize her statement in 
5 minutes.

  STATEMENT OF CHRISTINE GIBBS SPRINGER, NATIONAL ACADEMY OF 
                     PUBLIC ADMINISTRATION

    Ms. Springer. Thank you for inviting us. I was one of seven 
panel members that served at the National Academy and produced 
the independent assessment report last October. As part of our 
inquiry, academy staff conducted over 70 interviews with FEMA 
officials at headquarters and regions. We conducted site visits 
at FEMA's ten regional offices, 1, 3, and 6.
    We surveyed senior management at the region offices, 
facilitated a focus group, and also hosted an on-line State-
level dialogue--dialogue of State-level stakeholders.
    Our inquiry was based on, as you have noted, the post-
Katrina legislation that prompted FEMA to emergency 
preparedness and a more resilient Nation. We were impressed in 
our inquiry by the commitment and dedication of FEMA officials, 
but we also learned of frustration when headquarters does not 
provide regional offices with genuine opportunities for input 
into critical management and policy decisions. That, we 
believe, progress has been made on, but more progress is 
needed.
    We identified key challenges that still really exist even 
though progress has been made. Preparedness is not fully 
integrated across FEMA. Regional offices do not yet have the 
full capacity to ensure that the Nation is fully prepared. 
Stakeholders are not fully engaged, and FEMA has less than 
fully effective internal business practices, particularly, with 
regard, as has been noted, human capital planning and 
management.
    We made seven recommendations, and these recommendations 
included that FEMA work more closely with internal and external 
stakeholders to develop a shared understanding of preparedness 
integration, establish better and much-needed outcome metrics 
and standards, monitor progress on an on-going transparent 
basis.
    FEMA itself has acknowledged that progress in these areas 
needs to be made, and the regional offices have been empowered 
to develop capacity.
    When we talked to survey respondents at the regional senior 
FEMA regional level, three-quarters of them reported increased 
relationships with States but fewer reported increased 
interaction with other stakeholders. That continues to be 
something that we need to work on.
    As I close, let me turn my comments specifically to 
stakeholders. While many regional offices reported that some 
stakeholder relationships are improving, there is much more 
that needs to be done. A robust regional office, we believe as 
a panel, should be fully robust by having sufficient capacity 
to support efforts of stakeholders at every level and optimally 
and well-skilled work force to implement policies, a strong 
working relationship with headquarter components, and strong, 
effective working relationships with stakeholders.
    FEMA has made significant progress in the post-Katrina era, 
but more progress is on the way. We look forward to it. Again, 
thank you for inviting the National Academy of Public 
Administration to testify on this important issue, and we stand 
ready to answer any additional questions and to work with you 
in the future.
    [The statement of Ms. Springer follows:]
             Prepared Statement of Christine Gibbs Springer
                             March 16, 2010
    Mr. Chairman and Members, thank you for the opportunity to provide 
testimony today before this Subcommittee on Emergency Communications, 
Preparedness, and Response of the House Committee on Homeland Security. 
My name is Christine Gibbs Springer. I am the Director of the Executive 
Masters Degree Program in Crisis and Emergency Management at the 
University of Nevada--Las Vegas's Department of Public Administration, 
as well as a Fellow at National Academy of Public Administration (the 
National Academy). As a National Academy Fellow, I was one of seven 
members of an Academy Panel that released a report in October 2009, 
FEMA's Integration of Preparedness and Development of Robust Regional 
Offices: An Independent Assessment. The focus of today's hearing, 
``Ensuring Strong FEMA Regional Offices: An Examination of Resources 
and Responsibilities,'' goes to the heart of the Panel's study.
    As background, the National Academy was asked by Congress to 
conduct an independent assessment of FEMA's implementation of two key 
mandates within PKEMRA [Post-Katrina Emergency Management Reform Act of 
2006]: Preparedness integration and the development of robust regional 
offices. At its most fundamental level, the goal of PKEMRA is to build 
a more resilient Nation by improving America's preparedness. In order 
to play its leadership role within the Nation's preparedness system, 
FEMA must not only integrate preparedness across all of its component 
programs, but also establish an effective division of responsibilities 
between headquarters and the regional offices to reach all stakeholders 
to ensure we are a Nation prepared.
    Over the course of our assessment, Academy staff conducted over 70 
interviews with FEMA officials at headquarters and the regions, as well 
as with other interested parties. We conducted site visits to three of 
FEMA's ten regional offices [I, III, VI] and surveyed senior management 
in the regional offices. In addition, we facilitated a focus group 
session with FEMA's Regional Administrators and hosted an online 
dialogue with State-level stakeholders. As a member of the Academy's 
Study Panel, I am here today to share with you the highlights of what 
we found and the challenges we believe FEMA still faces.
    During the past decade, our Nation has faced significant natural 
and man-made disasters. After the devastation of Hurricane Katrina, 
PKEMRA mandated significant changes within FEMA to improve our National 
preparedness and with it our National response capability. The recent 
catastrophic seismic events in Haiti, Chile, Taiwan, and Turkey should 
remind us both that preparedness is critically important and that every 
disaster is experienced locally. While most daily emergency management 
situations are managed by local actors, FEMA plays a critical role in 
assisting stakeholders at all levels through training and education, 
exercises, and capacity-building grants. FEMA's regional offices are 
responsible for nurturing and maintaining the critical relationships 
with stakeholders upon which preparedness is based. PKEMRA directed 
FEMA to develop ``robust regional offices'' to carry out this critical 
role.
    Before discussing our findings, I would like to note that Panel 
members and staff were consistently impressed by the commitment and 
dedication of FEMA officials and staff, as well as their strong desire 
to make FEMA the premier National emergency management agency. During 
our interviews with headquarter and regional officials and in our 
survey of regional offices, we frequently encountered a candor and a 
willingness to identify problems and barriers to success while also 
offering concrete suggestions and ideas to address challenges and 
resolve issues. We also learned of frustrations when headquarters does 
not provide the regional offices with a genuine opportunity for input 
into critical management and policy decisions.
    Based on a review of FEMA's actions to implement PKEMRA, the Panel 
concluded that FEMA has taken significant steps to integrate 
preparedness and develop more robust regional offices. We believe that 
these efforts--undertaken by both the previous and the current 
administrations--should be recognized and applauded. Despite this 
progress, we identified several key challenges at the time of our 
review:
  <bullet> Preparedness is not yet fully integrated across FEMA;
  <bullet> Regional offices do not yet have the capacity required to 
        ensure the Nation is fully prepared;
  <bullet> Stakeholders are not yet full partners with FEMA in National 
        preparedness;
  <bullet> FEMA has ineffective internal business practices, 
        particularly with regard to human capital planning and 
        management.
    To address these concerns, the Panel issued a total of seven 
recommendations. Among other things, the Panel recommended that FEMA 
work with internal and external stakeholders to develop a shared 
understanding of preparedness integration, establish needed outcome 
metrics and standards, and monitor progress on an on-going and 
transparent basis. From an organizational standpoint, FEMA needs to 
eliminate silos and other impediments to the full integration of 
preparedness.
    As FEMA itself has acknowledged, regional offices are the agency's 
front line in supporting stakeholders throughout the country. 
Recognizing the critical importance of the regional offices, the Panel 
recommended that FEMA continue building their capacity consistent with 
Administrator Fugate's summer 2009 policy memorandum delegating 
additional responsibilities to the regions. Equally important, FEMA 
should develop a framework to evaluate how successful it is in building 
robust regional offices, while continuing to assess whether additional 
authorities should be delegated to the field. Based on effective 
practices elsewhere in the Federal Government, the Panel provided FEMA 
with key principles to use in strengthening the headquarters-regional 
office relationship.
    FEMA can make most, if not all, of these needed changes. Our study 
found that senior FEMA regional officials recognize the urgent need to 
integrate preparedness, rebuild their capacity, improve their 
headquarters relationship, and more actively engaging stakeholders at 
all levels. In our April 2009 survey of senior FEMA regional managers, 
three-quarters reported that their region had made at least some 
progress in preparedness integration--yet almost 85 percent felt it 
would take at least 1 more year to achieve. Three-quarters of the 
survey respondents reported increased relationships with States, but 
fewer reported increased interaction with such stakeholders as private 
industry and Tribes. Most strikingly, over 90 percent of the 
respondents reported that considerable or moderate changes would be 
required for their regional office to become fully robust.
    Clearly, much remains to be done. FEMA regional managers identified 
actions to improve FEMA's efforts in National preparedness. These 
included:
  <bullet> Establish a vision for preparedness integration and increase 
        commitment to their goal;
  <bullet> Make programmatic and administrative changes to FEMA's grant 
        programs including reducing the administrative burdens placed 
        upon grantees (such as multiple reporting requirements, and 
        grant applications);
  <bullet> Engage and better serve the needs of stakeholders;
  <bullet> Coordinate common goals within all FEMA divisions or 
        Directorates to reduce HQ program stove-piping;
  <bullet> Continue to empower the regions through increased staffing 
        and authorities, as appropriate;
  <bullet> Continuously improve the relationship between the regions 
        and headquarters by recognizing and utilizing the knowledge and 
        experience that exists within the regions; and
  <bullet> Continue to expand available funding and consider potential 
        structural changes within the regions to more effectively meet 
        regional needs.
    Many have asked: ``What is a robust regional office?'' Although 
PKEMRA did not define this term, the Panel believes that fully robust 
regional offices must have sufficient capacity to support efforts of 
stakeholders at the State, local, and Tribal levels; an optimally sized 
workforce with the requisite skills to implement headquarters policies 
and guidance; a strong working relationship with headquarters 
components and a commitment to emergency management goals; and strong, 
effective working relationships with stakeholders at all levels.
    As I close, let me turn my comments specifically to stakeholders. 
While many regional officials reported that some stakeholder 
relationships are improving, we also noted that much remained to be 
done to actively engage stakeholders at all levels. As mentioned above, 
FEMA's regional offices are the critical point of interface with the 
non-Federal stakeholders who have primary responsibility for emergency 
management including preparedness. FEMA must continue to build and 
expand these relationships, empowering the regions to actively engage 
stakeholders and holding these offices accountable for doing so.
    FEMA has made significant progress in achieving PKEMRA's mandate 
for preparedness integration and robust regional offices, but it faces 
continuing challenges in certain areas. It must build upon progress to 
date to fully integrate preparedness, to strengthen the capacity of the 
regional offices, establish working partnerships with stakeholders, and 
improve internal business practices that support mission-related 
programs. FEMA has the opportunity to develop a shared vision for 
National preparedness that actively engages and empowers partners, 
stakeholders, and citizens.
    Again, thank you for inviting the National Academy of Public 
Administration to testify on this important issue. We stand ready to 
answer any additional questions you may have.

    Ms. Richardson. Thank you for your testimony.
    Without objection, the gentlewoman from the State of Texas 
is authorized to sit for the purpose of questioning witnesses 
during the hearing today.
    I now recognize Mr. Long to summarize his statement for 5 
minutes.

STATEMENT OF BROCK LONG, DIRECTOR, ALABAMA EMERGENCY MANAGEMENT 
                             AGENCY

    Mr. Long. Thank you, Chairwoman Richardson. Congratulations 
on your recently being named Chair.
    Ranking Member Rogers, Members of the committee, thank you 
for allowing me to appear before you today.
    As the director of the Alabama Emergency Management Agency, 
my agency works tirelessly with Federal, State, and local 
officials to ensure that Alabama remains as self-sufficient as 
possible in preparing for, responding to, and recovering from 
all disasters.
    Despite our best efforts, history continues to show us that 
disasters and events will occur that exceed the capability of 
local and State government. In these incidents, strong and 
effective relationships with our FEMA regional partners and 
FEMA National headquarters are vital to successful response and 
recovery efforts.
    In Alabama, we enjoy a solid working relationship with our 
FEMA regional office in Atlanta, however, to improve on our 
collective emergency management capability, I recommend we 
either revisit or modify the following areas that I will 
summarize.
    First, we need to promote a better understanding of State-
specific priorities because, often, National initiatives do not 
necessarily reflect what is important to each State. For 
example, in Alabama, right now, what we are trying to 
accomplish is making sure that there is a local full-time 
emergency manager in all 67 counties. We do not have that at 
the local level right now. That is one of the most important 
levels, if not the most important level, in emergency 
management.
    We are also trying to build vendor-managed life safety, 
life-sustaining commodity concepts where we can be self-
sufficient for the first 72 hours in getting water, ice, and 
MREs out to those who have been impacted by disaster.
    We are also trying to build our shelter capability during 
evacuations. If we can provide our citizens with more options 
and safe shelters closer to the coast when we evacuate for 
hurricanes, imagine the life safety opportunity that we have 
and the cost reduction we will see in just evacuations alone.
    Second, we need to develop plans and policies and 
regulations that complement State and local initiatives to 
build capability and community resiliency. I applaud FEMA's 
recent efforts to improve authority; however, there are some 
policies that may stand in the way of our State's priorities.
    An example of this, in my opinion, is the hazard mitigation 
assistance safe room policy. While I am trying to build shelter 
capability, this policy is very restrictive and makes it very 
difficult for us to accomplish this using hazard-grant 
mitigation performance funds as a result of a disaster.
    No. 3, further empower FEMA regional offices with the 
authority to make critical response and recovery decisions 
during Presidentially-declared events. Here again, I applaud 
Administrator Fugate's efforts to extend the authorities down. 
One area that I think we need to also consider is to make sure 
that the regional offices have full authority to mobilize and 
execute commodity contracts and logistics, making sure that 
there are not--there are minimal layers in getting water, ice, 
and MREs down to the States and, ultimately, to the incident 
level.
    No. 4, staff regional offices to levels consistent with the 
programs and responsibilities they are charged with managing as 
a result of PKEMRA. It is my understanding that there are 32 
additional responsibilities and requirements placed upon 
regional offices, and I think we have to ask the question: Are 
the regional offices staffed properly to handle and execute 
those?
    Finally, provide States a great ability to build an engaged 
and prepared citizenry through tailored public awareness 
campaigns. Each one of our States is unique and different, and 
as a result, our risk and vulnerabilities are different. I 
would like to see a greater opportunity for us in receiving 
assistance through grants to help us tailor-make each one of 
our public awareness campaigns, because I often question if we 
are truly building a culture of preparedness within our 
citizenry.
    We have to look at our citizens as the most important 
resource and, also, the most important resource in the 
partnership between State, Federal Government, and local 
government.
    I have expanded on each one of these points in my written 
testimony. In closing, I want to reiterate we are making great 
strides towards refining emergency management processes through 
relationship-building across all levels of government and the 
private sector.
    It is in the spirit of improvement and cooperation that I 
am honored to appear before you today. Thank you again for 
inviting me to be here. I would be happy to answer any 
questions you may have at the appropriate time.
    [The statement of Mr. Long follows:]
                    Prepared Statement of Brock Long
                             March 16, 2010
                              introduction
    Chairwoman Richardson, Ranking Member Rogers, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today. As Director of the Alabama Emergency Management Agency, I 
appreciate the opportunity to address how the Federal Emergency 
Management Agency (FEMA) Regional offices work with our State.
    One of our goals at the Alabama Emergency Management Agency is to 
build a prepared citizenry, coordinate all available resources down to 
the incident level during disasters, and be as self-sufficient and 
timely as possible. To meet this goal, an effective partnership between 
FEMA, the State, local jurisdictions, and our citizens is imperative. 
Despite our best efforts as a State to remain self-sufficient, the 
possibility of a disaster overwhelming our capabilities and requiring 
assistance from our Federal partners at FEMA is ever-present. Our 
preparedness, response, and recovery efforts depend upon solid 
relationships with FEMA, and we appreciate the assistance and guidance 
that we receive from FEMA Region IV.
    During Presidential disaster declarations, States need assurances 
the FEMA regional offices and FEMA Headquarters fully understand the 
strategic priorities and capability shortfalls of the State. In the 
past 18 months, Alabama has experienced seven Presidential disaster 
declarations. While our relationship with FEMA Region IV is healthy and 
productive, these disasters indicate room for improvement. The 
strategic priorities of the States remain the foundation for improving 
the emergency management community's levels of preparedness and 
capability to respond and recover.
    Each State has unique needs due to their geographic location, 
budgets, and staffing; however we all face the common challenge of 
meeting the specific needs of our citizens utilizing DHS and FEMA 
assistance, which is often guided by ridged policy and subjective 
regulation interpretation. By gaining an understanding of State 
priorities, FEMA could better construct a bottom-up approach to 
developing policies, regulations, and grant guidance. Also, FEMA 
regional offices should be given more autonomy and staff to manage 
Federal grants and programs in a manner specifically supporting State 
priorities.
                regional responsibilities & authorities
    Many of the Federal programs initiated remain National in scope and 
fail to translate effectively or efficiently at the State level. 
Alabama's challenges are much different than other large and small 
States as classified by the Robert T. Stafford Disaster Relief Act 
(Stafford Act). Unfortunately, disasters will never recognize National 
priorities, so flexibility must stand as the starting point of any 
National policy or regulation. By providing FEMA regional offices 
discretion to aid States in building local capabilities, the ultimate 
goals of self-sufficiency, saving lives, reducing the overall cost of 
disasters, and improving collective response and recovery times are 
closer to reality.
    While FEMA regional offices remain responsible for added program 
requirements as a result of the Post-Katrina Emergency Management 
Reform Act (PKEMRA) and FEMA National initiatives, it remains 
imperative the level of authority provided to FEMA Region offices 
parallel these added responsibilities. Regions must also be staffed at 
proper levels to effectively administer grants, disaster assistance, 
and program requirements.
    All disasters begin and end locally. When decision-making authority 
is delegated closest to the incident, collective disaster response and 
recovery will be more efficient and timely. The emergency management 
community applauds Administrator Fugate's recent decision to provide 
FEMA Regional Administrators with new decision-making authorities. The 
realignment of authority providing Regional Administrators the ability 
to approve State Management Administrative Cost for Public Assistance 
and the Hazard Mitigation Grant Program should also be commended. 
Despite these improvements there remain areas where additional 
authority should be provided to FEMA regional offices. For example, by 
giving FEMA regional offices the authority to order life-sustaining 
commodities such as, water, ice, and meals-ready-to-eat during a 
disaster response, logistical coordination is closer to the incident. 
This authority should be provided because FEMA regional offices have 
greater visibility of the incident's magnitude and severity. 
Additionally, they are better-positioned to activate and execute 
National-level commodity contracts.
    In recent years Alabama supported FEMA's Gap Analysis Survey, but 
corresponding assessment programs must be modified accordingly. Without 
modification, there remains no mechanism to help jurisdictions mitigate 
identified gaps. These gap analyses facilitate good communication; 
however, there is rarely a commitment to assist the States in 
overcoming the identified shortfalls. PKEMRA and other National 
initiatives place an overwhelming number of requirements and 
responsibilities upon the FEMA Regions for administering programs, 
grants, and assessments. Unfortunately, these efforts fail to empower 
the FEMA Regions to execute these programs in a way that builds 
capability from the State and local level.
    The leadership within FEMA Region IV continues to improve on its 
relationship and customer service to Alabama. For example, they 
recently designated a Logistical Chief and Operations Section Chief to 
work directly with Alabama. In previous years, Alabama would interact 
with these critical positions only during limited operational 
activations. Now, we are able to plan and exercise more frequently, and 
customer service is more consistent. Also, the FEMA Region IV 
directorate staffs are easily accessible and travel to our State 
Emergency Operations Center to explain new programs, requirements, and 
to mitigate outstanding issues.
                public assistance & the appeals process
    One area of concern that has a negative impact upon the State's 
relationship with FEMA is the lack of regional support staff within the 
Recovery Directorate. Often the State is left waiting for crucial 
appeal and eligibility determinations by the Region for Public 
Assistance projects after a disaster. For example, the City of Orange 
Beach incurred extensive damages to its coastline from Hurricanes 
Gustav (1789-DRAL) and Ike (1797-DR-AL). The declarations for these 
hurricanes came in October 2008; however, a final determination about 
the eligibility of the engineered beach was not determined until 
February 18, 2010. This delay exposed the city's infrastructure to 
additional tropical threats without its most cost-effective and 
valuable protective resource in place.
    FEMA Regions and Headquarters also regularly exceed the prescribed 
appeals response time frames in 44 Code of Federal Regulations 206.206. 
According to these regulations, the FEMA Regional Administrator or 
Assistant Administrator for the Disaster Assistance Directorate will 
notify the grantee in writing of appeal decision or need for additional 
information within 90 days of receiving the appeal. For example:
  <bullet> The Baldwin County appeal of an Office of Inspector General 
        (OIG) Audit DA-09-03 was submitted to FEMA Region IV on 
        November 16, 2009. To date, there remains no determination 
        regarding this appeal.
  <bullet> The City of Gulf Shores second appeal of 1605-DR-AL PW 792 
        was submitted to FEMA Headquarters on July 7, 2008 while the 
        final determination regarding this appeal was received more 
        than a year after submitted.
    Many of these delays appear to be the result of staffing shortfalls 
in the FEMA Regional Recovery and Mitigation Directorates. FEMA 
National Headquarters should revise and enhance staffing levels within 
the FEMA Regional offices to directly support States, or grant further 
decision-making authority to the Federal Coordinating Officer at the 
Joint Field Office. It should be noted that the recent reorganization 
at FEMA Headquarters has not yet had an impact upon the States; 
however, we continue to support any reorganization of FEMA promoting 
additional customer service and timely decisions in support of all 
aspects of emergency management.
                              fema policy
    While FEMA leadership has recently taken needed strides to address 
previous policies and regulation interpretations, Alabama occasionally 
sees policies developed and implemented that were not coordinated 
across the different directorates within the agency or the States. As a 
result, these policies contradict State priorities. An example of this 
is FEMA's ``Hazard Mitigation Assistance for Safe Rooms'' policy. To 
maximize life safety shelter capability and improve evacuations, 
Alabama is working collectively with local governments to reduce the 
evacuation distance citizens travel to seek safe refuge by building a 
robust shelter strategy and capability. Shelters are in great demand as 
AEMA has received in excess of $70 million dollars in Letters of Intent 
(LOI) for safe rooms and shelters as a result of Hurricanes Ivan, 
Katrina, Gustav, and Ike. Despite this need, the current safe room 
policy is overly restrictive, making it difficult for the State and 
locals to utilize Hazard Mitigation Grant Program funds for the 
construction of general hurricane evacuation shelters.
    NEMA released a position paper in the fall of 2009 expressing 
concern over this policy and requesting Hazard Mitigation Grant Program 
(HMGP) funds be eligible for safe rooms. While FEMA's response pointed 
to legislative obstacles, a review of Section 404 of the Stafford Act 
clearly outlines reducing hardship, loss, or suffering as eligible 
expenditures. Such interpretations stand as a perfect example of overly 
restrictive applications of the law inhibiting State's abilities to 
protect life and property.
                            recommendations
    A recent survey completed by the National Academy of Public 
Administration's (NAPA) highlights two recurring themes:
    1. FEMA Headquarters must ensure better internal directorate 
        integration and communication.
    2. FEMA must build robust regional offices with increased 
        authority, autonomy, and staff support.
    Improving upon these areas will significantly improve FEMA's 
relationship with a vast array of stakeholders.
    Finally, the most effective means to prevent disasters from 
evolving into catastrophic events is to first create a culture of 
preparedness within our citizenry. While National-level preparedness 
efforts and outreach campaigns are positive in theory, many of these 
efforts do not effectively reach citizens. National public awareness 
campaign strategies can be more effectively managed by giving States 
appropriate discretion and funding. Many programs mandated by PKEMRA 
and other National-level initiatives address how emergency management 
should prepare and build capability to respond; however, a 
disproportionately small amount of emphasis and funding is invested to 
educate citizens about their specific hazard vulnerability. Finally, 
our preparedness planning stops short by not effectively incorporating 
citizens as resources into our plans and initiatives.
    The State of Alabama appreciates the good work FEMA and our Federal 
partners do for our citizens prior to and following a disaster. With 
minimal modifications, FEMA can certainly improve its working 
relationship with States.
    Thank you for the opportunity to testify today and I stand ready to 
answer any questions you may have.

    Ms. Richardson. Thank you, Mr. Long, for your testimony.
    I thank all the witnesses for the testimony and will remind 
each Member that he or she will have 5 minutes to question the 
panel.
    I now recognize myself for questions.
    Mr. Russell, can you please describe the staffing levels 
that your region has to manage the homeland security grant 
programs? Will you receive additional grants specialists under 
the fiscal year 2011 budget request?
    Mr. Russell. Yes, Madam Chairwoman. I think that, at the 
moment, you know, I have been in the job now for about 2\1/2\ 
months. At the moment, we have what we need to be able to 
effectively do our programs.
    I say that only because it is done in a partnership between 
the region and between headquarters, also. If there is a point 
that we get to as this process evolves that I decide that I 
cannot perform my mission, at that time, before I get to that 
point, what I do is I go and I say I need more resources.
    From that, I am assured that those resources will become 
available. So as I went through and I did an assessment of my 
capabilities, I felt, at this point, I have no shortfalls in my 
ability to perform my mission.
    Ms. Richardson. What do you have?
    Mr. Russell. I have----
    Ms. Richardson. How many people do you have?
    Mr. Russell. I have in my mission--I don't know precisely 
the exact number that I have in that one division, but I know 
that when I have talked to my division director, he is 
satisfied with what he has now in the context of what we are 
doing now.
    We know that this is an evolving process, and I know that, 
as this process does evolve, if I do need to acquire more 
assets, then I will be the first in line to put my hand up to 
be able to get those.
    Ms. Richardson. How involved were you in the budget itself? 
Were you allowed to--were you just given a set budget and 
everyone was given the same thing? Or were you allowed to say I 
need a little more X in this particular category or more in 
every way?
    Mr. Russell. Ma'am, you know, as I am told--because I was 
not there yet when this all transpired--but as I did my review, 
I was told it was a give-and-take; meaning that we had input 
into the process, and then we were able to talk about what 
would be requirement in the field and, from there, be able to 
build the budget.
    Ms. Richardson. Mr. Garratt, to your knowledge, how 
involved are the regional coordinators in the budget? Where 
they given an opportunity to make changes? Or was it the same 
for every region?
    Mr. Garratt. Regions are engaged in the budget at different 
points in the budget process. For example, there are a number 
of headquarters organizations and functions--response and 
recovery, mitigation--that control lines of funding. Those 
organizations work directly with the regions to identify what 
their requirements are for those functional lines of funding 
and provide funding to the regions in support of their 
requirements.
    So in that respect, regional staff work directly with their 
counterparts at headquarters to identify what the requirements 
are and then work to negotiate funding to support those 
requirements. In addition to that, regions receive a general 
budget to support their 1100 account, which is for travel--
things of that nature.
    So they are involved in the budgeting process from the very 
beginning, but the level and the tenor of their engagement is 
going to depend on the type of line of funding for which they 
are requesting support.
    Ms. Richardson. Are you aware of any regions that submitted 
additional requests for changes that were not met?
    Mr. Garratt. I would suspect, Madam Chairwoman, that there 
are probably requests every year within various functional 
areas that are adjudicated, and some are met and some are not 
met. I am not aware that there have been any critical 
requirements that any regions have identified that have not 
been met.
    Ms. Richardson. Are you aware of any that had to do with 
staffing requests?
    Mr. Garratt. Regarding?
    Ms. Richardson. In the regions, did any of them submit, in 
addition to their budget, a further request of staffing that 
has not been met?
    Mr. Garratt. I am certain that, in the past, Madam 
Chairwoman, that the regions have requested additional staffing 
requirements and that we have not been able to satisfy all of 
those requirements at that time. However, I would like to 
piggyback on that and say that, as my colleague, Mr. Russell 
indicated, our deputy administrator, Mr. Serino, recently had 
an all-hands. At that all-hands, he announced that he is 
committed to making 25 percent of FEMA headquarters existing 
vacancies reallocating those to the regions.
    We have a team in process right now identifying how those--
the needs and requirements for those--at the regional level for 
those vacancies.
    So the agency is very committed to additionally fortifying 
and bolstering the number of staff at the regions.
    Ms. Richardson. I am going to pause for that moment because 
I am Chairwoman and my time has expired, and I want to set a 
good example.
    So I will now recognize the Ranking Member of the 
subcommittee, Mr. Rogers, from Alabama.
    Mr. Rogers. Thank you, Madam Chairwoman.
    Mr. Garratt, I understand that FEMA is conducting a 
comprehensive policy review. Is this still going on? Who is 
leading the effort? What is the status of it?
    My understanding is that this has been on-going for quite 
some time.
    Mr. Garratt. Mr. Rogers, I think I am going to need a bit 
more detail. When you say a comprehensive policy review, is 
that a particular policy or just in general?
    Mr. Rogers. No. With regard to the region's offices and 
whether they have sufficient personnel.
    Mr. Garratt. Correct, sir. This is really kind of a multi-
faceted process. As we indicated, some months ago, the 
administrator queries of regions and asked them what additional 
authorities they needed. They provided that information, and 
then additional authorities were redelegated to those.
    Since then, we have--the administrator at the NEMA 
conference last week met again with the regional administrators 
and said, okay, thanks. Appreciated that. Let us do this again.
    He is, once again, charged the regions to identify 
additional types of authorities that they believe that they 
need to be more effective and to let us know what those 
authorities are. Regions will get together. They will identify 
what those are. Those will come up.
    In terms of policies supporting the regions, those are an 
outgrowth of the additional authorities that we provide to the 
regions. So as we identify authorities that we are going to 
pushing back down to the regions, we will amend and revise the 
policies to support that.
    Mr. Rogers. Okay. So we are still on-going.
    I would also like to ask you to clarify how FEMA's grant 
programs will operate between FEMA headquarters and the 
regions. Will they be affected differently?
    Mr. Garratt. That is an evolving process, Mr. Rogers. In 
fact, we do exact that to work differently. We do expect, 
again, as part of this process, to begin pushing various grant 
responsibilities that are currently managed at the headquarters 
level down to the regions.
    But I can't tell you what the final form of that is going 
to be at this point. We anticipate that we are going to get 
additional grants personnel. But in terms of exactly what those 
responsibilities are going to be, don't have a fix on that yet, 
sir.
    Mr. Rogers. Okay. Thanks.
    Mr. Russell, I want to stay on this same topic with you.
    What type of oversight or support does the regional office 
provide with respect to State and local grants now?
    Mr. Russell. Sir, now, we provide--we are the ones that 
actually manage those grants now. So we work with the States 
and with the local partners to make sure that the grants are, 
in fact, being processed way that they should at the moment.
    Mr. Rogers. Okay. When you heard Mr. Garratt talk about 
trying to shift more of that responsibility to the regional 
offices, is that something you support and think would be 
better for the distribution of those grants?
    Mr. Russell. Yes, sir, Mr. Rogers. You know, my philosophy 
is that things are best done at the point of impact. So I think 
that the more ability that we have in the regions to monitor, 
to push our grants forward, I think that would be better and 
more efficient.
    Mr. Rogers. Great. Thank you.
    Mr. Long, how long does it take the disaster declaration 
process generally to take once you have submitted a request to 
FEMA for a declaration? Is there a typical time line?
    Mr. Long. Ranking Member Rogers, honestly, the declaration 
process has become somewhat frustrating, in my opinion. The 
last two disaster declarations that we went through--Tropical 
Storm Ida, it took 32 days. The most recent denial that we had 
for extreme cold weather also took 32 days.
    To me, that is an excessive time frame, however, there is 
very little transparency in that process as well.
    Once our request--the Governor's request goes to the FEMA 
region, it is not clear as to what the next steps are and where 
our request is actually in process.
    Mr. Rogers. Specifically, how would you like to see it 
improved that would help you do your job better?
    Mr. Long. Well, if we have definitely--if there is life 
safety issues involved where individual assistance is needed 
and FEMA is rolling resources, I don't see why a declaration 
could not take place within 24, 48 hours.
    You know, quite honestly, if public assistance--if it is 
just a public assistance where infrastructure is damaged but 
there are no life safety and we meet our numeric indicators 
that FEMA provides, I am not sure why it would take a month. It 
should also be a matter of maybe 2, 3, 4 days.
    Mr. Rogers. Tell me more about the transparency concerns.
    Mr. Long. Quite honestly, when you call--when we make phone 
calls to the region or to headquarters, a lot of times, the 
answer we get is that the declaration request is in process and 
that is it.
    Mr. Rogers. Okay. Thank you very much, Madam Chairwoman.
    Ms. Richardson. The Chairwoman will now recognize the 
others for questions they may have to ask the witnesses. In 
accordance with our committee rules and practice, I will 
recognize Members who were present at the start of the hearing 
based on seniority of the subcommittee alternating between the 
Majority and Minority.
    Those Members coming in later will be recognized in the 
order of their arrival. But with that, what supersedes all of 
that is recognizing the Chair of our committee, which is 
Chairman Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman. I 
might add that, for your maiden voyage as Chairwoman, you have 
done an excellent job. I compliment you on it.
    Mr. Garratt, at what point will we have this 5-year 
capital--human capital plan for FEMA so we can look at it?
    Mr. Garratt. Good question, Chairman Thompson.
    I can't tell you at this point--give you a date when you 
are going to have that. What I can tell you is why I can't tell 
you that at this point and what we are doing that is leading to 
that particular effort.
    Since Mr. Fugate came on, he recently identified three key 
initiatives for this--for fiscal year 2010. One of those key 
initiatives is the work force enhancement initiative. As part 
of that, he essentially wants us to relook at how we hire. He 
wants to increase diversity. He wants to increase the interning 
programs. He wants to increase and improve how we manage our 
work force. He wants to have rotations, et cetera, et cetera. A 
lot of improvements that he envisions for this coming year.
    Our work groups that we have stood up are currently shaping 
and fashioning what are going to be the initiatives to support 
that work force enhancement initiative. What comes out of those 
work groups will, in fact, inform what will be that 5-year 
human capital strategy. We are looking at potentially some 
fairly large changes in how we do business from a human capital 
perspective within the agency. We want to wait for that work 
force enhancement initiative to conclude and understand how we 
are going to move forward before we complete a human capital 
plan.
    Mr. Thompson. Six months? Nine months? So, I mean, you tell 
me what it accomplishes, but if you don't operate on a time 
table, we could be here 4 years or into another administration 
and we don't have it.
    Will you get for the committee Mr. Fugate's expected time 
table for the implementation of this human capital plan?
    Mr. Garratt. Yes, sir.
    Mr. Thompson. Dr. Springer, we are glad to have you. I 
always enjoy opportunities to go to your part of the country.
    Can you, from a professional standpoint, tell me how 
difficult it would be to implement any reorganization without a 
human capital plan to go with or a staffing component?
    Ms. Springer. Well, from my experience, the human capital 
plan is pivotal to the reorganization and restructuring. Our 
panel determined that, frankly, one part of this restructuring 
that was necessary was to develop metrics that would allow 
regional office performance to be measured and to hold them 
accountable. FEMA concurred.
    Performance standards particularly directed at outcome 
measure should be developed for regional offices. Metrics and 
standards, we found, was very important.
    I would also like to mention it is not just what we found 
was--it is not just more staff. We found that skill sets needed 
to be different and enhanced. That is----
    Mr. Thompson. Thank you very much.
    Mr. Garratt, are you aware of the fact that the reputation 
of FEMA is that they tend to look for retired civil servants, 
other people to employ rather than just people from the 
ordinary work force?
    Mr. Garratt. I am familiar with that, Chairman Thompson. 
The administrator is extremely familiar with that as well which 
is why he is committed to turning that perception around.
    Mr. Thompson. All right. Is it perception or is it reality?
    Mr. Garratt. It is certainly perception. The reality is 
that we do have a lot of former military, former retirees who 
are part of our permanent work force as well as make up a 
substantial number of our reserve work force. Very true.
    Mr. Thompson. Well, will you provide us the information 
statistically as to what that component is?
    Mr. Garratt. Yes, sir.
    Mr. Thompson. Mr. Russell, who is your disability 
coordinator for your region?
    Mr. Russell. My disability coordinator, Chairman Thompson, 
I have a person who handles all my equal rights and all of my 
other things to deal with personnel, but I don't have anyone 
who is particularly the disability coordinator at the time.
    Mr. Thompson. Last question.
    Mr. Garratt, can you tell me why we don't have listed in 
our budget for this year for FEMA staffing for disability 
coordinators in the region?
    Mr. Garratt. Chairman Thompson, I fully expect that, as 
part of this on-going process, working with the regions that is 
being led by Deputy Administrator Serino, that disability 
coordinators will be among those key positions that we will be 
providing positions for as part of the reallocation of 
positions to the region.
    So I think the expectation is here that we will be 
reallocating headquarters positions to the regions, and one of 
them will be for the purposes of disability coordinators in 
each region.
    Mr. Thompson. So if we had an emergency in Alabama today, 
who would have that responsibility in the region in Atlanta?
    Mr. Garratt. It would be shared between the headquarters 
disability coordinator and personnel, probably, performing an 
additional duty at the regional office.
    Mr. Thompson. I would assume, Mr. Long, that is part of 
some of your concerns that you shared in your testimony about 
having specific priorities and things at the regional office so 
you will know who the contact person is to get specific 
information rather than being bounced around?
    Mr. Long. I would agree. Yes, sir. You know, FEMA has made 
some good strides, though. We have actually seen a logistics 
coordinator that has been assigned directly to the State, 
whether it is a disability coordinator or whether it is a 
logistics or operation chief that assigned directly to Alabama 
that services us, it is always a best practice because it gives 
us somebody that we can test, train, exercise with, and we 
don't just see them in the heat of battle when we have been 
impacted by a disaster.
    Mr. Thompson. But you understand that planning and training 
is far better than in the heat of battle?
    Mr. Long. Yes, sir. Most definitely.
    Mr. Thompson. Thank you. I yield back.
    Ms. Richardson. The Chair now recognizes Mr. Olson for 5 
minutes.
    Mr. Olson. Well, thank you, Madam Chairwoman. 
Congratulations to my colleague from California on her 
appointment as the Chairwoman.
    Thanks to the witnesses for coming today. I greatly 
appreciate your time, your expertise, and your willingness to 
sit down and educate us and make sure that we make better 
decisions for the people in our districts and for the people of 
America.
    My first question is for Mr. Russell. Mr. Russell, a 
constant concern I hear from Galveston County is that the local 
FEMA team set up to assist in the Hurricane Ike recovery will 
soon be leaving and heading back to the Denton office 300 miles 
away, perhaps, as soon as April.
    The job is not done on the ground, and we need that team to 
stay there. I understand that you have been meeting with local 
officials, State officials, stakeholders in the Galveston area, 
and these meetings have been going well. I am getting very 
positive feedback.
    Can you give us an update on where things stand?
    Mr. Russell. Yes, sir. Congressman Olson, I am committed, 
first of all, to ensuring that the staff there will not leave 
until the job is done. What that means to me is that, until I 
get concurrence from the State that, in partnership, that we 
are at a position where that staff could leave and return back 
to their region for the actual close-out, then that staff is 
going to remain in place.
    To me, that is a very important point that there is going 
to be a conjunction with our State partners before my folks 
leave.
    Mr. Olson. Thank you very much for that answer. I mean, 
again, they are very concerned that they will be pulling out a 
little early. I appreciate your commitment to keeping them 
there until the locals say we are good to go.
    Question again for--another for you, Mr. Russell, and for 
Mr. Garratt.
    Back to Galveston and Ike, I am sure you are familiar with 
the University of Texas medical branch there at Galveston, one 
of the best hospitals and medical schools in our Nation. They 
are located in Galveston, as you all know, and they sustained 
great damage during Hurricane Ike. A constant concern I hear 
from them is the length of time it takes FEMA to complete a 
project worksheet, up to 60 days in some cases.
    Are there steps FEMA can take to reduce that amount of 
time? I would like you to specifically address the method used 
to estimate the cost of repair and mitigation as a means of 
achieving that goal of a quicker turnaround.
    Mr. Russell. Yes, sir. In fact, I am going down there next 
week to do a walk-through. I, too, share the thought that my 
goal is to always have the process as streamlined as possible. 
If we can work together as a team, and that means with the 
applicant, with the State, with the locals, with FEMA, and be 
able to come to conclusions faster; that is what I prescribe, 
too.
    So I am going to do a walk-through. I am going to talk to 
the officials down there to see where we are at and what we can 
do to move forward as a team.
    Mr. Olson. Thank you very much.
    Mr. Garratt.
    Mr. Garratt. I have nothing to add.
    Mr. Olson. I greatly appreciate that. I mean, it is 
incredibly important to that community. They had two hospitals 
down there--the Shriners Burn Hospital and UTMB--that were both 
significantly damaged. A lot of the health care moved off the 
island, and they are in the process of getting that back up and 
running.
    I greatly appreciate your willingness to go down there and 
talk to them because it is a regional asset. I mean, they were 
one of the only Level 1 trauma centers, one of the three in our 
region, handling a lot of the work offshore on the drilling 
rigs and, also, the Texas--some of the refineries there on the 
Gulf southern part of the Houston ship channel.
    When they went down, it put a tremendous strain on the 
trauma care throughout the region. So thank you very much for 
being willing to go down there.
    Finally, one last question for you, Mr. Russell, and that 
is just because you are my Region 6 administrator.
    But you know the devastation that was caused by Ike. The 
Texas coast suffers from storm-related disasters on a regular 
basis. Each disaster results in hundreds of millions of 
dollars, if not billions, in economic damages. I am aware of 
FEMA's efforts to buy and restrict building lots where there 
have been damaged structures.
    I would like to hear your thoughts on the buying and 
retiring of building rights on undeveloped land where there is 
the possibility of future development in areas that are 
disaster-prone.
    Mr. Russell. Well, sir, you know, I think that, with me, I 
always like to look at what is the flexibilities of FEMA's 
programs now; work with our State partners to figure out what 
is the best course of action for them. So at this juncture, I 
am not familiar in detail with that particular item that you 
are talking about, but I can say this: I can say, whenever an 
issue is brought to me from my State partners, we sit down, we 
address it, and find a way to attack it to get it achieved.
    Mr. Olson. Well, thanks for your answer. Make sure you get 
the information to that. I appreciate the witnesses' time and 
yield back.
    Ms. Richardson. The Chairwoman recognizes Mr. Pascrell from 
New Jersey, who has had his own challenges this week with some 
of the floodwaters, for 5 minutes.
    Mr. Pascrell. Thank you, Madam Chairwoman. Madam 
Chairwoman, I just return this morning from my district which 
is centered in the Passaic River Basin. As a result of the 
storm, this weekend, we are seeing some of the worst flooding 
in the area I have seen in 25, 30, 40 years.
    The river--the Passaic River will crest at some point later 
today. The river already has risen to record heights and 
continues to threaten the surrounding populace. My question is 
going to be to Mr. Garratt.
    Flooding continues to cause severe property damage. Several 
thousand residents have already been forced to evacuate. The 
rising waters, combined with downed trees, power lines, have 
led to the closing of many roads and bridges, not only 
throughout my area, but throughout the entire State of New 
Jersey.
    Thousands and thousands are still without power. I surveyed 
the damage myself with the sheriff's department and with the 
State police and other rescue workers. They have been doing an 
unbelievable job since early Saturday morning in responding and 
getting local residents out of harm's way--over a thousand have 
been evacuated. Thousands have been evacuated.
    I want to express, Mr. Garratt, my appreciation to the FEMA 
office here in the District of Columbia that has been working 
in coordination with my office. I am confident in the work that 
FEMA Region 2 will undertake to conduct a preliminary damage 
assessment with the State of New Jersey. We have lost lives. 
This is serious business. I don't have to tell you. We already 
have a declared state of emergency in the State.
    Regarding the subject of this hearing, I want to go on the 
order and saying that I support additional authorities being 
delegated to FEMA's regional offices if they receive the 
resources necessary to handle these greater responsibilities. 
One cannot exist without the other.
    In fact, I hope that FEMA National would give the regional 
office greater authority on other matters like choosing local 
contractors for projects within the region. Clearly, each 
region has different challenges, and the local people on the 
ground better understand what is needed than decision-makers 
here in the District of Columbia.
    Mr. Garratt, can you comment on this issue of giving 
regional offices greater control over choosing local 
contractors for regional projects?
    Mr. Garratt. I think it is a great idea, Mr. Pascrell. As a 
matter of fact, our chief procurement officer, Mr. Jake Hansen, 
recently briefed our administrator on his plan to put an 
individual in each region who would be part of a--essentially--
collective team but located in each region which would be local 
business engagement personnel for the right purpose of reaching 
out to and engaging local contractors in a way that we haven't 
necessarily done before.
    So they would, on a day-to-day basis, operate within the 
regions doing exactly what you suggest. But in a major disaster 
situation, they could be assembled in a disaster area to do 
that in a more robust and a more focused and targeted way 
within the disaster area.
    So, yes, we think that is a terrific idea.
    Mr. Pascrell. Let me ask this question. Let us assume that 
these new authorities we are talking about today are already 
implemented and a disaster was seen in many parts of the 
Northeast. How would FEMA's response be different? Would the 
regional offices have the resources in place today to 
effectively mitigate the damages these heavy floods and winds 
have caused? What is your opinion?
    Mr. Garratt. Tough question to answer because it really 
depends on the situation. We have, for example, some very large 
contracts that we can call on. Our individual assistance, 
technical assistance contracts, or public assistance, technical 
assistance contracts.
    Those contracts enable us to essentially roll contractors 
out on a moment's notice to respond to disasters. We don't need 
to go out and compete those requirements to get somebody to 
perform that service. They are available now to do that. That 
is the value of having them on standby is that we have that 
capability ready to go.
    What we are interested in doing is being able to migrate as 
quickly as we can away from that and then bring on local 
contractors once we get the situations stabilized. What we 
don't want to do is sacrifice our ability to move quickly for 
the sake of simply bringing on local contractors. What we want 
to do is find a balance that enables us to respond quickly with 
a standby contractor and then bring on locals now.
    To the extent that regions can mimic what we do with these 
large contractors at a regional level, I think that is fine. 
That is one of the things that we are going to be working with 
regions on as time goes on is to see if we can essentially 
break--come up with smaller regional versions of these large 
contracts that we have.
    Mr. Pascrell. Madam Chairwoman, we are not just talking 
about contractors. We are talking about authorities. You know, 
FEMA deals with a lot of entities and agencies. A critical 
issue.
    Ms. Richardson. Mr. Pascrell, your time has expired. 
However, you are dealing with a real emergency as we speak.
    If there is no objection, I would like to extend one more 
moment, and then we will have a second round of questions.
    But with respect to you and your constituents, if there is 
no objections. Okay.
    Go ahead, Mr. Pascrell.
    Mr. Pascrell. Thank you. I just want to conclude by this. I 
am satisfied with what has happened between Saturday and this 
morning in terms of FEMA. I have been critical in certain 
areas, but let us say it the way it is.
    So I wanted you to take that back, and we have got serious, 
serious problems here.
    It looks look we are heading towards a 100-year record 
flood. That is where we are heading by 6 to 9 o'clock tonight. 
There is--you know, people have been evacuated.
    Of course, these things happen--5 years, 10 years, 20 
years. Nature has its way of dealing--we have our way of 
dealing. Lives have been lost, and we certainly want to do 
everything we can to help the State agencies, local agencies to 
do what they have to do.
    I must say that this preparation was much better than the 
last time we had this in 1987. So thank you.
    Thank you.
    Ms. Richardson. Thank you, Mr. Pascrell. Of course, we wish 
all of your constituents well.
    Mr. Cao from Louisiana, you are acknowledged for 5 minutes.
    Mr. Cao. Thank you very much, Madam Chairwoman.
    First of all, I just wanted to say hello to Mr. Russell and 
Mr. Garratt. Mr. Russell and I have been working closely 
together in the past year to make sure that New Orleans 
recovery is on pace. I must say that has been progressing 
extremely well.
    One of my biggest concerns, obviously, was last year with 
respect to the province at the local FEMA offices and with you 
coming down to address the issue. Changes were made and, 
therefore, the office became much more efficient and much more 
friendly.
    My question--my first question to you here is: Are the 
steps that you have taken to improve the efficiency as well as 
the working environment at the local office--how can you ensure 
that these policies and procedures will remain in place to 
allow the FEMA officers a productive work environment as well 
as a friendly working environment?
    Mr. Russell. Well, yes, sir. Congressman Cao, I have a 
meeting with my folks in Louisiana one per week. I have an 
interim director, Mr. Mark Landry, down there now. He and I 
talk consistently to ensure that everything that we put in 
place continues to move forward.
    We also are in close communication with the State, also, 
with members of the city to make sure that we continue to have 
the progress down there streamlined and make sure that we come 
to conclusions and get these projects done.
    Mr. Cao. One of the issues that I had with FEMA and 
probably still have with FEMA is the competency in evaluating 
FEMA projects, especially, for example, on the issue of Charity 
Hospital. I know that FEMA refused to pay the State the 
replacement value of Charity Hospital.
    It went through several years of back-and-forth and then, 
subsequently, it was put to an arbitration panel to decide. The 
arbitration panel issued a judgment within a week and a half 
saying that FEMA owes the State the replacement money for 
Charity.
    It, to me, seems almost a slap in the face to FEMA who have 
consistently held that FEMA does not owe the State that amount.
    What changes have you initiated to ensure that these 
problems in the future can be avoided where FEMA is not 
obstructing recovery but working in conjunction with State and 
municipalities and ensure that recovery is expedient as well as 
sufficient?
    Mr. Russell. Sir, I think that one of the things that you 
have probably seen is that we have people now working together. 
Instead of us doing our part of the PW process in one room and 
have the applicant in a different room, what you see now in 
Louisiana is folks coming together in the same room talking 
together trying to find solutions together. That was done 
with--that was done with University of New Orleans.
    So I think you have seen some of the progress that we have 
made. What happened in Charity happened a while back, and it 
took time to get to where we are at now. But I think that you 
have seen the benefits of us coming together as a team and 
trying to solve it together.
    Mr. Cao. The budget for FEMA for 2011 includes a cut in 
funding for emergency food and shelter. For example, post-
Katrina food was shipped in trucks from areas as far away as 
Florida. Much of it was prepackaged and obtained at a cost 
significantly higher than food obtained elsewhere in the State 
and in neighboring States.
    So I just want to, again, reemphasize a statement by 
Congressman Pascrell. Explain to me how regional offices can 
ensure that this type of waste doesn't occur during and after a 
disaster.
    Mr. Russell. Sir, what happens at the regional office is 
that we work with our State coordinators to make sure that we 
have the resources there when they are required to be there.
    So my goal on the ground is to make sure that, when any of 
my five States may request food or water, ice or whatever the 
case may be, that we have it on time and on target for the 
survivors. So that is what I am going to be doing.
    Mr. Cao. On the issue of--also, how can you be more 
efficient? How can you get your locals involved to provide a 
more cost-effective means of providing these basic needs for 
the people rather than trying to shift--for example, I was 
hearing that a peanut butter and jelly sandwich was charged to 
the Government at an amount of $8.
    Ms. Richardson. Mr. Cao, your time has expired.
    So, Mr. Russell, if you could summarize briefly.
    Mr. Russell. Okay. In quick summary, I just want to say to 
our goal is to make sure that once the stores and once the 
businesses are operational, then we are not there anymore, and 
the folks can then go to the stores and purchase things there.
    Mr. Cao. Thank you very much.
    Ms. Richardson. The Chairwoman acknowledges Ms. Norton, 
from the District, for 5 minutes.
    Ms. Norton. Thank you, Madam Chairwoman. Thank you for this 
hearing.
    Thank all of you for your important service in this area of 
American life.
    For Mr. Garratt, as you are aware, the National Capitol 
Region has recently had a, perhaps, as far as I know, its first 
Presidential disaster declaration. We have had various kinds of 
FEMA help for the December snowstorm. I believe the February 
snowstorm which the region--its various jurisdictions has 
requested, is still pending.
    Where are you on fund allocation for the December 
snowstorm?
    Mr. Garratt. Funding for disasters depends on--or the flow 
of funding depends on the specific functional area. If we are 
talking about public assistance, the net funding is received as 
project worksheets are submitted and then obligated to 
headquarters.
    Once they are obligated, the funding goes to the district, 
and then the district then provides that on the applicant.
    Ms. Richardson. What about funding for the snow--this is--
we are in the middle of a great recession, and all of the 
region was bled dry by having to clear the snow. What about 
that funding, sir?
    Mr. Garratt. Again, if they have a declaration, as soon as 
they make the request----
    Ms. Norton. You are able to give me in March any date with 
respect to funding for the first declaration in December?
    Mr. Garratt. Funding is available for----
    Ms. Norton. For the District? For--Heights County? For 
Montgomery County? For the States and the District of Columbia 
for the December snowstorm, have you any target date for when 
funding will be available to jurisdictions?
    Mr. Garratt. Ms. Norton, funding was available the day that 
those disasters were declared.
    Ms. Norton. So the jurisdictions have received funding?
    Mr. Russell. No, ma'am. Not necessarily. Funding is 
available----
    Ms. Norton. Mr. Garratt, I wish you wouldn't play word 
games with me. I want to know when these various jurisdictions 
will receive funding for the snow they picked up with money 
they do not have.
    Mr. Garratt. They will review funding whenever they submit 
a project worksheet requesting that funding----
    Ms. Norton. For the jurisdictions, if they have not done 
so--they have not done so--would you----
    Madam Chairwoman, could I ask that Mr. Garratt submit to 
the Chairwoman the status of the jurisdictions as to what they 
have not yet done and what FEMA is to do rather than to go 
around in circles any further on this question?
    Ms. Richardson. Without objection.
    Ms. Norton. I would like that submitted within 2 weeks.
    I would like to know the role of the region when it comes 
to your so-called reserve or temporary workers. Is it true that 
these workers do not have any health care?
    Mr. Garratt. It is true that disaster assistance employees, 
which is one former reservist, does not have health care. A 
cadre of on-call reserve employees or core employees do have 
access to health care.
    Ms. Norton. Do you believe those workers would be covered 
by the present health care bill that is going through the 
Congress? Do you believe there should be any group of workers 
who do work for the Federal Government who should not have 
access to health care?
    Mr. Garratt. I personally believe that, whenever an 
individual is under Federal employ, that they should have 
access to health care during that period of employment.
    Ms. Norton. So these--where do these temporary workers come 
from?
    Mr. Garratt. They could be retired school teachers. They 
could be retired military----
    Ms. Norton. Are you aware of whether, perhaps, they are 
receiving health care from some other source?
    Mr. Garratt. Some of them are.
    Ms. Norton. Don't you think it is the obligation of the 
agency to know that they are receiving health care from some 
other source or whether they are simply without any health 
care?
    Mr. Garratt. Well, given the fact that we cannot provide 
disaster assistance employees health care right now, knowing 
whether they have access to health care or not is relatively--
--
    Ms. Norton. Beside the point.
    Mr. Garratt, health care is this President's signature 
issue. I wish you would go back to Administrator Fugate and 
indicate that, in light of his own President's priority on 
health care, the agency needs to do one of two things; either 
make certain that these employees have health care from some 
other source, or devise a way to make sure the Federal 
Government does not have, in its employ, people who don't have 
health care while it is preaching to the rest of the country 
that everybody ought to have health care.
    Thank you very much, Madam Chairwoman.
    Ms. Richardson. The gentlelady's time is expired.
    The Chairwoman recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Madam Chairwoman, let me--Chairwoman, let 
me thank you, first of all, for your courtesies of extending 
the opportunity to participate in this hearing as I am not a 
Member of this subcommittee but a Member of the full committee. 
Also, let me congratulate you on your leadership of this 
committee and the courtesies of the Ranking Member as well.
    Coming from the Gulf region, I have lived with FEMA as 
third cousins, if you will. We have gone through, in recent 
years, Storm Allison. Some of you may remember that if you are 
seasoned FEMA-ites. That was one of the costliest climate or 
weather conditions. It was not a hurricane. Then, of course, 
Hurricane Katrina, Rita, and Hurricane Ike that has hit our 
community.
    Just several points that I would like to make and then have 
a comment on it. I would like to join my colleague, Congressman 
Olson, to insist and hope that FEMA will remain in the 
Galveston region. Before the Congressman was elected, we worked 
collectively together on these issues, and I continue to look 
forward to working with him.
    Mr. Russell, I would commend to you and your staff to reach 
out to North Galveston. I am familiar with them because they 
are working with churches in my Congressional district. I would 
ask you specifically to contact a Reverend Berkeley on the 
conditions in North Galveston. This has been brought to my 
attention by churches in my Congressional district.
    One of the concerns I have is this whole question of the 
relationship--and it is a statutory relationship--between the 
State and the Federal Government once an emergency declaration 
is declared.
    Mr. Garratt, I would like your commentary. The point that 
is of concern is I, too, respect the State Government and local 
governments, but there is much confusion when there is an 
emergency declaration because, whenever you have to talk to 
FEMA, they always have to say they have to talk to people who 
are in the emergency.
    My question to you is: What review is FEMA looking at to 
make sure that it is much more effective in an emergency 
situation than this back-and-forth calling? If you are FEMA and 
FEMA says it has to call local. Local is under siege.
    I think Hurricane Katrina was an example. The State of 
Louisiana was under siege. The city was under siege. You 
couldn't get FEMA to act because they were talking to local 
officials.
    Is there any review on how FEMA behaves during an 
emergency? Was kind of take-charge posture that you are in?
    Mr. Garratt. Fundamentally, FEMA's responsibility under the 
Stafford Act is, once the Governor requests an emergency or 
disaster and the President makes such a declaration, we are in 
a support role. We are supporting the State and supporting the 
locals in responding to that disaster. We use the incident-
command system as the unified model that we all operate under 
to provide that support.
    So generally, we are operating hand-in-hand. So typically, 
we are providing support through the State to the locals. 
However, under PKEMRA, we were given the authority in those 
unique situations where we had to act unilaterally to do so.
    So the Federal Government, as a result of Hurricane 
Katrina----
    Ms. Jackson Lee. Under what?
    Mr. Garratt [continuing]. Now has that authority.
    Ms. Jackson Lee. Under what did you say?
    Mr. Garratt. We have the authority to provide assistance 
directly to locals even those such assistance has not been 
requested by the State.
    Ms. Jackson Lee. Okay. You said under something. I didn't--
--
    Mr. Garratt. Under the Post-Katrina Emergency Management 
Reform Act.
    Ms. Jackson Lee. Okay. Let me just quickly say that I am 
officially asking for there to be a review even beyond that as 
the relationship with the Stafford Act. I believe I have asked 
this over and over again, and I just believe that that is 
antiquated.
    Let me just quickly go to the question of hires and would 
emphasize that, in this time, I believe it is important to hire 
diversity out of the community, people who are in need and to 
expand the concept and to focus on local contractors.
    Let me quickly go to Mr. Russell. Let me thank you for 
coming down with Administrator Fugate. I think it was a 
constructive meeting.
    Would you please answer the question and concern I had 
about deferred maintenance where a lot of the properties in 
Houston were not being taken care of because the excuse was 
there was an issue of deferred maintenance that I guess these 
were already homes that had trouble and you are leaving a lot 
of seniors in the gap? Are you reviewing and can you review 
with me numbers of these properties that have not been fixed 
and denied because of the utilization of deferred maintenance?
    Mr. Russell. Yes, ma'am. You know, when we were down there, 
one of the things that I set out to do was to make sure we give 
everything a fresh look; to look at things again to make sure 
that we did not overlook anything. I think that is being done 
even as we speak now.
    The Stafford Act allows people to be on the road to 
recovery. I think that, as we are doing in Houston area, we are 
trying to use as much latitude and flexibility as possible to 
make sure that we have the right outcome.
    Ms. Jackson Lee. Mr. Russell, would you then provide to 
this committee a status report so that I could get a copy? 
Would you be in touch with my office so that I can get an 
update as to what reassessment you are making? What areas and 
what places can look to, possibly resources that they did not 
have before, because we are still living in very poor 
conditions. If you travel, as you know, you will see a lot of 
blue roofs for Hurricane Ike because people have not been able 
to improve their conditions.
    Mr. Russell. Yes, ma'am. I will do that.
    Ms. Jackson Lee. I thank the Chairwoman, and I yield back.
    Ms. Richardson. Thank you.
    The Chairwoman has one question, and then we will kind of 
wrap up for the day.
    Mr. Garratt, as you may know, my district is home to a very 
large Samoan population. I actually have a very diverse 
district; largest amount of Cambodians outside of Cambodia; 
largest amount of Samoans outside of Samoa. In particular, I 
have an interest in our support to American Samoa and the 
Pacific Islands.
    Particularly, after the earthquake and the tsunami, I 
personally traveled to American Samoa. When asked by NAPA what 
are the biggest challenges affecting the least prepared State 
in your region, a respondent, in reference to a territory, said 
``distance, time, funding, trained personnel, and visibility.''
    What steps are you taking to ensure that the Pacific 
Islands are receiving the training, funding, and attention that 
they need to properly prepare for and respond to a disaster?
    Mr. Garratt. I can assure you that our Region 9 
administrator, Ms. Nancy Ward, who is one of our premier 
regional administrators--she was, in fact, the acting FEMA 
administrator during the interval between the old and the new 
administrations--is extremely familiar with American Samoa and 
the challenges that face getting assistance to them as well as 
what they need to improve their posture.
    She is using the response to the recent events in American 
Samoa as an opportunity to reach out to and, in fact, conduct 
the sorts of training and engagements that we believe, as an 
agency and as the Samoans believe, will help improve their 
posture and their preparedness for future disasters.
    So I think if you talk with the leadership in American 
Samoa, what you will see is that there is and has been 
increased engagement there to address and identify weaknesses 
or shortfalls in capability, and we are working with them to 
address those.
    Ms. Richardson. Well, with all due respect, Mr. Garratt, it 
was well publicized on one of the channels that, for example, 
this--our Government, we had invested money, for example, for a 
warning system that had never been deployed.
    I can tell you that I did go there and I did talk to 
people. There were no sirens. There were no warnings. When the 
disaster occurred and the tsunami subsequently approached, I 
believe probably about 10 to 15 minutes, there were no police 
on the street to provide direction. There were not first 
responders out there to help people, seniors and children, who 
were the greatest amount of people who died in that incident 
because those systems were not in place.
    So I do hope that we will learn from it, but I wouldn't go 
so far as to say that things are necessarily working well.
    Finally, I would like to build upon Ms. Jackson Lee's 
comments that I think we really do need to reevaluate the 
policy under the Stafford Act of who FEMA takes direction from 
if, in the event a disaster occurs. When I went to American 
Samoa and had an opportunity to participate in some of the FEMA 
meetings, it is quite clear that it is the Governor's 
discretion to determine what happens next.
    My only question to you would be: What happens if the 
Governor does not make the right decision? The Governor may be 
in power, but he or she does not necessarily make the right 
decisions. If they don't, what do you do then?
    Do we just let the boat sink because that person has the 
authority? Or do we have a Plan B in place to make another 
decision?
    Specifically, I would say that American Samoa owes this 
Government money for previous incidents and so, therefore, the 
Governor didn't rely upon some help that should have been 
provided because he was afraid of adding to the additional 
bill. We should never put residents and people at the whim of 
those kinds of decisions.
    So just giving you forewarning, that is an area I am going 
to be working at, and I think we do really need to seriously 
evaluate, if an emergency happens, what happens if you don't 
necessarily agree with that Governor's decision, what do we do 
in that case?
    Do you agree?
    Mr. Garratt. I agree that it is an issue that is worthy of 
continued discussion, Madam Chairwoman.
    Ms. Richardson. Thank you.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions. The Members of the 
subcommittee may have additional questions for the witnesses, 
and we ask that you respond, preferably, within 2 weeks in 
writing to those questions.
    I would just like to summarize that Mr. Rogers mentioned a 
concern of transparency and also turnaround time in terms of 
declarations.
    Mr. Thompson talked about the staffing for disability 
coordinators, implementing the 5-year human capital strategy 
which, Mr. Garratt, you promised to get us a timeline and 
actually get it done.
    Also, the status of FEMA employees, those that are retired, 
former civilians and so on. Mr. Olson talked about Galveston, 
Texas, regarding the work force staying there.
    Mr. Russell, you made a commitment to that. He also 
mentioned the building rights for disaster-prone areas.
    Mr. Pascrell talked about choosing local contractors in 
regards to some of this regional work that is being done. Mr. 
Cao talked about workers having a positive work environment in 
Louisiana and the ability to complete their projects.
    He mentioned evaluation of FEMA's response to some of the 
claims and whether they are being done fairly and efficiently. 
Finally, he mentioned that the regional offices--what decisions 
that they would be able to make in regards to food, for 
example, that the cost would be reasonable and would not be 
wasteful.
    Ms. Norton talked about the current emergency that--here in 
the district--we experienced the first Presidential, she 
believes, declaration made and asked for a recap in terms of 
the current worksheets that have been submitted, have not been 
submitted, and where you are in the response, Mr. Garratt.
    She also talked about the temporary disaster workers, what 
is the process in place if they qualify for benefits and if 
that is something that can be changed.
    Finally, Ms. Jackson Lee talked about--she built upon Mr. 
Olson's comments of continuing support with Hurricane Ike for 
you, Mr. Russell.
    Review of FEMA's take-charge policy which what I was just 
talking to you, Mr. Garratt, about, the considering of local 
hires and contractors and keeping diversity in mind. Finally, 
what reassessment we would make.
    I think that summarizes it all. We look forward for future 
hearings. Thank you very much for all of your participation.
    Hearing no further business, the hearing is adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairwoman Laura Richardson for David Garratt and Tony 
                                Russell
    Question 1. In response to questioning, you indicated that 
Administrator Fugate has asked the Regional Administrators to identify 
additional authorities that would make the Regions more effective. What 
is the FEMA Headquarters' timetable for receiving, reviewing, and 
acting upon the suggestions of additional authorities provided by the 
Regional Administrators?
    Answer. On July 21, 2009, Administrator Fugate issued a memorandum 
acting on the recommendations of the Regional Administrators to 
delegate several new authorities to the Regions. FEMA acted proactively 
and quickly to delegate the authorities to be executed in the Regions. 
Ten authorities have been delegated to date with several executed 
immediately upon the issuance of the memorandum. Others are under 
review. Subsequently, Administrator Fugate empowered the Regional 
Administrators at a recent joint meeting to continuously identify 
additional authorities that they believe will help them more 
effectively implement their mission. Since this is an open-ended 
invitation, there is no specific ``time table.'' FEMA's Office of 
Regional Operations will, as a matter of routine, solicit and convey 
such new authority requests directly to the administrator as they are 
received.
    Question 2. In response to questioning, you stated that the Deputy 
Administrator has committed to reallocating to the Regions 25 percent 
of existing FEMA headquarters vacancies. How many Headquarters 
vacancies does FEMA currently have, and what will be the process and 
timeline for making 25 percent of those positions available to the 
Regions?
    Answer. FEMA's vacancies change on a near daily basis, as employees 
separate, retire, or on-board. We will commence reallocating vacancies 
to the Regions once a senior-level workgroup has completed its review 
and recommendation, which they intend to complete within 60 days. While 
the initial identification of these positions will be concluded prior 
to hurricane season, recruitment and hiring will take longer, and 
depend on various geographic factors.
    Question 3. Please provide the current number of filled and vacant 
permanent full-time positions named below per FEMA Region. For each 
position, please describe their role and responsibilities in managing 
and implementing FEMA's preparedness and grants programs.
  <bullet> Federal Preparedness Coordinator
  <bullet> Deputy Federal Preparedness Coordinator
  <bullet> Preparedness Analysis & Planning Officer
  <bullet> Grant Management Specialists
  <bullet> Training and Exercise Specialists
  <bullet> Continuity Programs Manager
  <bullet> Community Preparedness Officer
    Answer. Please see the accompanying attachment for the total number 
of filled and vacant permanent full-time positions for the job titles 
named above, by FEMA Region.
    Below are the role and responsibilities by job title named above 
for the preparedness and grants programs:
                 federal preparedness coordinator fpc's
    The Regional-National Preparedness Concept of Operations (2008), 
outlines the Federal Preparedness Coordinator (FPC) responsibilities 
for implementing the National Preparedness System, including three 
primary roles:
  <bullet> Meeting regional and National needs, including providing 
        support for all-hazards preparedness (e.g., strategy 
        development, hazard identification and risk assessment, and 
        planning) at the State and local level, in accordance with the 
        National Preparedness Guidelines. FPCs also assist in exercise 
        coordination and review (i.e., planning, design, execution, and 
        evaluation) and facilitate the spectrum of homeland security-
        related information sharing among regional stakeholders (e.g., 
        Fusion Centers, Joint-Terrorism Task Forces, Emergency 
        Operation Centers). They also support efforts to assess 
        regional risk and level of preparedness in coordination with 
        the National Preparedness Directorate (NPD) and regional 
        stakeholders (e.g., monitoring NIMS compliance and 
        implementation of National preparedness initiatives);
  <bullet> Managing the preparedness program and building capabilities, 
        including the provision of plans, guidance, and courses of 
        action based on risk and capability assessments to all levels 
        of government, non-governmental organizations, the private 
        sector, and citizen partners across all DHS mission areas. This 
        also includes coordinating the regional implementation of all 
        FEMA grant and technical assistance, training, exercises, 
        planning, and community preparedness programs. FPCs must be 
        aware of available resources and capabilities, current 
        operations, possible threats and vulnerabilities, and 
        facilitating and/or coordinating training opportunities for 
        internal and external regional stakeholders.
  <bullet> Building a regional network, including strengthening 
        partnerships vertically within FEMA and DHS and horizontally 
        across all Federal, State, and local jurisdictions, as well as 
        with non-governmental organizations, the private sector, and 
        citizen partners. FPCs provide liaison and coordination efforts 
        within the regional preparedness community (e.g., DHS field 
        elements, State, local, and Tribal governments, NGOs, community 
        groups), serving as the principal advisor to regional 
        stakeholders on National preparedness initiatives and programs 
        and supporting Federal interagency prevention and protection 
        initiatives through preparedness programs under his authority 
        (e.g., Protective Security Advisors, law enforcement, 
        intelligence community).
    The FPCs report to the Regional Administrator, but receive their 
primary mission direction from NPD, the Grant Programs Directorate 
(GPD), and National Continuity Programs (NCP). As FEMA continues to 
devolve authority to its regions, the FPCs will continue to work with 
the Regional Administrators and will continue to focus on building 
relationships and providing support to its partners on protection and 
National preparedness.
                deputy federal preparedness coordinator
    The Deputy Federal Preparedness Coordinator directly supports the 
FPC to achieve the many objectives FEMA National Preparedness is 
responsible for, as well as, managing the implementation of the 
Regional Catastrophic Preparedness Grant, Community Preparedness, and 
Continuity of Operations Programs.
           preparedness analysis & planning officer papo/pa's
    Regional Office preparedness personnel include Preparedness 
Analysis and Planning Officers (one per region), or Preparedness 
Analysts for short, at the GS-13/14 grade level to support the FPC 
fulfill its broad National preparedness responsibilities. They serve as 
the critical link between the operational planning and administrative 
activities at the Regional Office with the preparedness initiatives at 
the National Preparedness Directorate through performance of the 
following:
  <bullet> Collecting and analyzing operational and preparedness 
        capabilities, as well as risk factors specific to the Region;
  <bullet> Monitoring and evaluating regional capabilities and progress 
        of work in relationship to regional and National preparedness 
        policies and goals;
  <bullet> Identifying requirements and performing preparedness program 
        management or maintaining awareness alongside other Region, 
        Agency, and Department components, State, local, and Tribal 
        governments, public safety agencies, critical infrastructure 
        and key resource sectors, and citizen partners across the 
        region to meet such requirements; and
  <bullet> Developing annual and multi-year regional preparedness 
        strategies and influencing the application of grant and 
        technical assistance, training, exercises, operational 
        planning, and assessment activities to achieve such strategies.
                  grant management specialists--gms's
    The regions also perform grants management activities, which are 
supported by Grants Management Specialists (GMSs), who perform the 
basic management functions for all FEMA grants administered in the 
regions. To support these functions, the GMSs develop, deliver, and 
maintain a variety of support activities related to the business 
administration of grants and cooperative agreements, in accordance with 
policies set forth by GPD. They are responsible for four key management 
functions:
  <bullet> Financial monitoring (on-site and desk review) for all grant 
        programs, including legacy FEMA and preparedness grants;
  <bullet> Audit resolution activities for all grant programs, 
        including legacy FEMA and preparedness grants;
  <bullet> Cash-on-hand analyses for legacy preparedness grant 
        programs; and
  <bullet> Close-out activities for legacy preparedness grant programs.
    As FEMA continues to build its grant management capabilities in the 
regions, the GMSs will work even more closely with the National 
Preparedness Division, chiefly the FPC, to ensure that the financial 
and programmatic aspects of grants management are more closely 
integrated and to provide more comprehensive technical assistance to 
deliver analysis and guidance that focuses on both preparedness 
policies and financial compliance.
                   training and exercise specialists
    The Training and Exercise Specialists are responsible for 
administration, outreach, coordination, and operating efficiency of 
training and exercise program initiatives. This position is responsible 
for determining needs, performing gap analysis, marketing available 
curriculum with State, local, and Tribal partners, coordinating 
training between and among venues within the Region, assisting in 
student and instructor recruitment, and providing technical assistance 
regarding training and exercises. Monitors State, local, and Tribal 
policies, coordinates training and exercises, and assists with risk 
analysis, development, and management and other local activities that 
need to be coordinated with the Federal sector.
                       continuity program manager
    The National Continuity Programs (NCP) Directorate Regional 
National Continuity Program Manager solely manages the NCP 
Directorate's continuity programs at the Regional level. This includes 
providing continuity policy and program guidance to all Federal, State, 
territorial, Tribal, and local government jurisdictions in the region, 
and includes guidance and outreach coordination responsibilities to all 
Federal, State, territorial, Tribal, and local government elected 
officials and senior managers in the region. Primary responsibilities 
include developing the Region's Strategic Continuity 5-Year Plan and 
Program, developing and fielding, for all supported Government offices, 
continuity tests, training, exercises, and assessments, and all other 
related programmatic support to ensure the governments of the regional 
can continue their mission-essential functions and primary mission-
essential functions, under all conductions.
                     community preparedness officer
  <bullet> Initiates and develops support strategies to build effective 
        State and local Citizen Corps Councils and Programs throughout 
        the Region.
  <bullet> Interfaces with other FEMA offices, including Grants Program 
        Directorate, and other Federal agencies to integrate Federal 
        resources at the State, Tribal, local level through Citizen 
        Corps Councils.
  <bullet> Supports partnerships with a broad range of Government, 
        private sector, non-profit, and community-based groups and 
        promote multi-sector participation in planning, preparedness, 
        prevention, mitigation, response, and recovery through Citizen 
        Corps Councils and Programs.
  <bullet> Analyzes regional activities and provides support to 
        National policy development, implementation, and reporting on 
        community preparedness.
    Question 4. In December, Administrator Fugate announced that FEMA 
headquarters was reorganizing itself to group together similar programs 
based on the nature of their mission.
    Mr. Garratt and Mr. Russell, to what extent did FEMA HQ consult the 
Regions when it was formulating the new organizational structure?
    Mr. Garratt and Mr. Russell, are the Regions planning to reorganize 
themselves to realign with the new structure at headquarters? If so, 
when will that reorganization take effect?
    Mr. Russell, what has been the impact, if any, of the headquarters 
reorganization on Region VI?
    Answer. The Regions were integrally involved in the FEMA Senior 
Leadership Team discussions and decisions leading to the FEMA HQ 
reorganization.
    On February 19, 2010, the Administrator issued a memorandum that 
outlines the new FEMA organizational structure, and which specifically 
gave Regional Administrators the authority to implement their own 
reorganizations. Each Region is currently in the process of formalizing 
their individual organizational structure within a collectively 
negotiated uniform division structure that will apply across the 10 
Regions. In several cases, a few changes to branch structure and 
personnel are to be implemented and the new organizational alignment 
will take effect immediately.
    To date, there are few significant impacts on the Regions as a 
result of the headquarters reorganization. Changes include adjustments 
to the Regional Office Division titles and the co-location of logistics 
operations within the Response Division. Each Regional Administrator 
has flexibility to alter their branch structure depending on 
operational requirements. As a result, some regions have elected to 
adjust the location of personnel responsible for managing the financial 
and/or programmatic aspects of grants within either a new Grants 
Management Division, within the Mission Support Division, or within the 
National Preparedness Division. This is an on-going process, and as 
Regions continue to assess their capabilities, FEMA HQ will work with 
them to ensure they are able to fully achieve FEMA's mission.
 Questions From Honorable Dina Titus for David Garratt and Tony Russell
    Question 1. As you know, the Post-Katrina Emergency Management 
Reform Act required that FEMA develop robust regional offices. I have 
written both Administrator Fugate and Region Nine Director Armes to 
voice my concerns regarding the size of Region Nine and significant 
differences in needs of the States and territories. Has your office 
considered creating more regions or changing the alignment?
    Answer. At this time, there appears to be no need to alter the 
geographically organized infrastructure that comprises the ten FEMA 
Regions and supporting Area Offices. The ten-Region structure was 
originally based upon Office of Management and Budget Circular A-105 
``Standard Federal Regions,'' and FEMA has since relied upon this 
consistent framework to coordinate with other Federal departments and 
agencies to support the States, Tribes, and territories to successfully 
manage requests, coordinate resources, and maintain information sharing 
during disasters. If adjustments in support are needed to meet the 
requirements of the States, Tribes, and territories, FEMA prefers to 
strengthen the capabilities of the existing Regions--such as through 
the recent enhancement of Area Offices in Alaska, the Pacific, and the 
Caribbean.
    FEMA Region IX, headquartered in Oakland, California, serves more 
than 400,000 square miles that include the States of Nevada, Arizona, 
California, and Hawaii, the territories of American Samoa and Guam, the 
Commonwealth of the Northern Mariana Islands, the independent nations 
of the Federated States of Micronesia, and the Republic of the Marshall 
Islands. Over the past 2 decades, FEMA Region IX has responded to more 
than 280 U.S. Presidentially-declared disasters that generated nearly 
$12.5 billion in Federal assistance. To serve this large area, FEMA 
Region IX is augmented by separate offices, which have been established 
in key locations within the Region's area of responsibility. This 
ensures that every State and territory receives a constant and 
comprehensive level of support. For example, the Pacific Area Office, 
located in Honolulu, Hawaii, was created in 1992 to support disaster 
response and recovery in the Pacific area, and provides FEMA a forward-
area presence in the Pacific.
    FEMA will continue to monitor and assess the efficacy of the 
current ten-region structure. However, it has proven to be a successful 
organizational construct for many years.
    Question 2. Following Hurricane Katrina it was painfully obvious 
that our Nation's emergency response capabilities were severely lacking 
and unable to provide necessary recovery services. I am supportive of 
the idea of regional offices, but I want to ensure that these field 
offices are ready and able to respond to emergencies. What metrics does 
your office use to evaluate the readiness of field offices?
    Answer. Each Regional Office is charged with implementing FEMA's 
mission pursuant to the ``Rules and Tools'' outlined by headquarters. 
As such, the measures and metrics that apply to the Regions are derived 
from the specific mission and programmatic requirements that are 
developed by the individual FEMA directorates and offices. For example, 
the field operational guides, manuals, and doctrine that exist or are 
under development by the Response and Recovery Directorate outline the 
expectations of the Regions to implement response and recovery 
operations. Likewise, the National Continuity Programs, National 
Preparedness, Grant Programs, and Federal Insurance and Mitigation 
Directorates also provide programmatic and strategic direction to the 
Regions for managing National programs. The Office of Policy and 
Program Analysis also oversees the development of performance measures 
in order to implement the Secretary and Administrator's strategic 
priorities, such as those outlined in the Quadrennial Homeland Security 
Review (QHSR) and the annual Administrator's Intent. Regional Office 
measures and metrics are reflected within each Regional Administrator's 
performance plan that is evaluated and updated each year to assess 
their implementation of FEMA programs. Finally, additional metrics are 
established by regulation--notably 44 CFR--which outlines requirements 
for responsiveness across multiple disaster-related program areas.

 
----------------------------------------------------------------------------------------------------------------
                                                 FPC              DFPC              PAPO               GMS
                                         -----------------------------------------------------------------------
                                           FILLED   VACANT   FILLED   VACANT   FILLED   VACANT   FILLED   VACANT
----------------------------------------------------------------------------------------------------------------
Region 1................................        1        0        1        0        1        0        4        0
Region 2................................        1        0        1        0        1        0        5        0
Region 3................................        1        0        1        0        1        0        6        1
Region 4................................        1        0        1        0        1        0        6        0
Region 5................................        1        0        1        0        1        0        6        0
Region 6................................        1        0        1        0        1        0        2        2
Region 7................................        1        0        1        0        1        0        3        0
Region 8................................        1        0        1        0        1        0        3        0
Region 9................................        1        0        0        1        1        0        5        0
Region 10...............................        1        0        1        0        1        0        5        0
                                         -----------------------------------------------------------------------
Total...................................       10        0        9        1       10        0       45        3
----------------------------------------------------------------------------------------------------------------


 
----------------------------------------------------------------------------------------------------------------
                                                              TES                 CPM                 CPO
                                                     -----------------------------------------------------------
                                                       FILLED    VACANT    FILLED    VACANT    FILLED    VACANT
----------------------------------------------------------------------------------------------------------------
Region 1............................................         1         0         1         0         1         0
Region 2............................................         2         0         1         0         2         0
Region 3............................................         2         0         0         0         1         0
Region 4............................................         6         1         1         0         1         0
Region 5............................................         3         0         0         1         0         1
Region 6............................................         4         0         1         0         1         0
Region 7............................................         1         0         0         0         1         0
Region 8............................................         2         0         1         0         1         0
Region 9............................................         2         0         1         0         1         0
Region 10...........................................         2         0         0         0         1         0
                                                     -----------------------------------------------------------
Total...............................................        25         1         6         1        10         1
----------------------------------------------------------------------------------------------------------------

    Question From Honorable Dina Titus for Christine Gibbs Springer
    Question. As you know well, Las Vegas is unique city. I would argue 
that private sector integration and preparedness is more important in 
Las Vegas that almost any other city in the United States. While 
working on NAPA's report, what did you find regarding the integration 
between the regional office and the private sector?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
